No. 19-.
In The

Supreme Court of
tfje 39mteD States.
Lawrence I. Fejokwu,
Petitioners,
v.
Commodity Futures Trading Commission,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
APPENDIX

Lawrence ikemefune C. Fejokwu
Pro se
6905 Bellevue Avenue
2nd Floor
Guttenberg, NJ 07093
+1.212.202.0290
Law-Fej@ChazonQTA.com

App.la
TABLE OF CONTENTS OF APPENDICES
1. Opinion of Third Circuit
2. Order of CFTC
Reconsideration

Denying

3. Summary Affirmance of CFTC

App.3a
Motion for
App. 12a
App. 14a

4. Decision of NFA Appeals Committee...App. 16a
5. Decision of NFA Hearing Panel

App.35a

6. Order of Third Circuit Denying Petition for
Rehearing
App.56a
7. Judgment of Third Circuit

App.58a

8. Reply Memorandum in Support of Petitioners’
Motion for Leave to File Supplemental
Appendix at the Third Circuit
App.60a
9. Order of Third Circuit Granting Petitioners’
Motion to File Suppl. Appendix
App.65a
10. Statutes, Regulations, and Rules Involved in
the Case
App.67a
11. Excerpts
Hearing.

of

Transcript

of
NFA
....App.77a

12. Petitioner’s Answer to NFA Complaint; NFA
Case No. 14-BCC-06
App.85a

App.2a
13. Excerpts of NFA’s
Reconsideration

Reply to

14. Excerpts
of
Petitioner’s
Reconsideration by CFTC......

Motion for
App.l08a
Motion
for
..... App.l09a

App.3a
NOT PRECEDENTIAL
UNITED STATES COURT OF
APPEALS
FOR THE THIRD CIRCUIT
No. 17-2408
CHAZON QTA QUANTITATIVE TRADING
ARTISTS, L.L.C., and LAWRENCE I. FEJOKWU,
Petitioners
v.
COMMODITY FUTURES TRADING
COMMISSION
On Petition for Review from the Commodity Futures
Trading Commission
(CFTC Docket No. CRAA 16-01)
Submitted under Third Circuit
L.A.R. 34.1(a)
October 29, 2018
Before: CHAGARES, JORDAN,
and VANASKIE, Circuit Judges.
(Filed: December 13, 2018)
OPINION1
CHAGARES, Circuit
Judge.

i

This disposition is not an opinion of the full Court and under
I.O.P. 5.7 does not constitute binding precedent.

App.4a
Lawrence Fejokwu and his company Chazon QTA
Quantitative Trading Artists, L.L.C. (“Chazon”) were
permanently barred from membership in the National
Futures Association (NFA) for failing to cooperate
promptly and fully with an NFA investigation. They
appealed to the Commodity Futures Trading
Commission (CFTC), which upheld the NFA’s finding
and sanction. Now they petition this Court to review
that decision under 7 U.S.C. § 21(i)(4). We will deny
the petition.
I.
Because we write only for the parties, we recite just
those facts necessary to our decision.
Fejokwu is the founder of two foundations, the
Vision Foundations, that focus on pan-African
socioeconomic development.
In April 2011,
Chazoneering, S.A., an entity solely owned and
operated by Fejokwu, transferred $1.6 million to the
Vision Foundations. The Vision Foundations used
that money to fund the Maria Funds, a pair of
commodity pools operated by Chazon.
Fejokwu
registered Chazon with the NFA as a commodities
pool operator, with himself as its principal.
From the beginning, the Maria Funds suffered
significant losses. The funds had only $125,000
remaining by March 2014.
At that point, Fejokwu applied to withdraw Chazon
from the NFA to save costs. Fejokwu argued that he
and Chazon were exempt from NFA registration
under the so-called small-pool exemption, 17 C.F.R. §
4.13(a)(2).
That exemption provides that a
commodities pool operator need not register with the
NFA if none of its pools has more than 15 participants
and the total gross capitalization of all of its pools does

App.5a
not exceed $400,000, excluding the operator’s and
principal’s own money.
Fejokwu’s withdrawal request triggered an NFA
investigation. Fejokwu at first cooperated with the
investigation, providing on request the Vision
Foundations’ organizational documents, balance
sheets, and ledgers, the Maria Funds’ 2013 bank
statements, and Chazon’s bank and broker
statements.
On further request, Fejokwu also
provided the Maria Funds’ and the Vision
Foundations’ bank statements from 2011.
The NFA then asked for Chazoneering’s bank
statements. Fejokwu balked at this request. He felt
that he had already provided sufficient evidence that
the small-pool exemption applied and that the NFA
was not entitled to Chazoneering’s documents since
that entity was not an NFA member and did not trade
futures. He ultimately provided the LLC agreement
and 2013 and 2014 bank statements for
Chazoneering, LLC — a different entity than the one
that indirectly capitalized the Maria Funds.2 But he
refused to provide any Chazoneering bank statements
from 2011, when the Vision Foundations were funded.
He then added the Vision Foundations as listed
principals of Chazon, which arguably made review of
Chazoneering’s bank statements unnecessary —
because listing the Visions Foundations as Chazon
principals made clear that all the Maria Funds’ money
came from Chazon principals. When the NFA still
insisted, Fejokwu asked to discuss the request with
NFA lawyers or supervisors. Rather than give him

2 In this opinion, we differentiate between the Chazoneering
entities only when the distinction is relevant.

App.6a
that opportunity, the NFA concluded its investigation
with a finding that Fejokwu had failed to cooperate.
The NFA then filed a formal complaint charging
Fejokwu and Chazon with violating NFA Compliance
Rule 2-5. That rule requires each NFA member and
associate to cooperate promptly and fully with the
NFA in any NFA investigation, inquiry, audit,
examination, or proceeding regarding compliance
with NFA requirements or any NFA disciplinary or
arbitration proceeding. Fejokwu and Chazon filed an
answer, and the NFA held a hearing, at which
Fejokwu and an NFA examiner testified.
The NFA hearing panel issued a decision finding
that Fejokwu and Chazon had willfully violated Rule
2-5. The panel determined that the NFA legitimately
requested Chazoneering’s bank statements from the
time it funded the Vision Foundations because the
NFA questioned the ultimate source of Chazon’s
capital contributions and thus its eligibility for the
small-pool exemption, among other reasons. The
panel found that Fejokwu was “very vague” about
where Chazoneering got the money and that he
“actually appeared to be trying to deceive NFA” about
the different Chazoneering entities, which raised
issues about his credibility. Appendix (“App.”) 39.
“Moreover,” the panel explained, “the sudden listing
of the Vision Foundations . . . appeared to have been
an attempt by Fejokwu to find a reason not to provide
the Chazoneering statements,” which “gave NFA
legitimate concerns as to the funding of
Chazoneering.” App.40. Since the NFA’s request for
the Chazoneering bank statements was legitimate,
the panel found that Fejokwu and Chazon willfully
violated Rule 2-5 by refusing to provide them. As a

App.7a
sanction, the panel permanently barred Fejokwu and
Chazon from NFA membership.
Fejokwu and Chazon appealed to the NFA Appeals
Committee, which upheld the panel’s conclusion and
declined to modify its sanction. On the sanction, the
appeals committee emphasized the importance of
member cooperation to the NFA’s effectiveness. It
also rejected Fejokwu’s argument that the violations
were not willful, finding them to be “a conscious
decision” and pointing out that Fejokwu “knowingly
misled” the examination team about the different
Chazoneering entities. App.21—22. While there was
no evidence that Fejokwu harmed customers or
committed fraud, the committee explained, “that may
simply be because the documents [Fejokwu and
Chazon] refused to produce contained or led to such
evidence.” App.22. Given this “very grave violation”
and the “significance of’ Rule 2-5, the appeals
committee
found
the
sanction
“completely
appropriate.” App.22.
Fejokwu and Chazon appealed this decision to the
CFTC, which summarily affirmed. They then timely
petitioned for review.
II.
The NFA and CFTC had jurisdiction over the
underlying disciplinary proceeding under 7 U.S.C. §
21(b), (h). We have appellate jurisdiction to review
the CFTC’s order upholding the NFA’s decision under
7 U.S.C. § 21 (i)(4). We are satisfied that jurisdiction
is proper in this Court rather than in the Court of
Appeals for the Second Circuit despite Chazon’s New
York post-office box since the record suggests that
Fejokwu carried out Chazon’s business out of his
home office in Guttenberg, New Jersey. See 7 U.S.C.

App.8a
§§ 9(ll)(B)(ii)(I), 21(i)(4). We are also satisfied — and
the CFTC does not contest — that we have jurisdiction
over the now-represented corporate appellant
Chazon.
We review the factual determinations of an
administrative agency “to determine whether there is
substantial evidence to support [its] decision.”
Plummer v. Apfel. 186 F.3d 422, 427 (3d Cir. 1999).
We review the agency’s decision to uphold sanctions
for abuse of discretion. See, e.g.. Butz v. Glover
Livestock Comm’n Co.. Inc.. 411 U.S. 182, 185-86
(1973).
III.
Fejokwu and Chazon argue that substantial
evidence does not show that they willfully violated
Rule 2-5 and that a permanent bar was unwarranted
and unjustified.
We disagree.
A.
There is no dispute that Fejokwu and Chazon could
have provided Chazoneering’s 2011 bank statements
but refused. Fejokwu instead argues that his refusal
to cooperate did not violate Rule 2-5 because the NFA
had no legitimate regulatory reason for requesting
those statements. The NFA found that there was a
legitimate regulatory need to confirm Chazon’s
eligibility for the small-pool exemption. We conclude
that substantial evidence supported that finding.
Fejokwu relied on the small-pool exemption to
withdraw from the NFA, giving it a legitimate reason
to investigate Chazon’s eligibility for this exemption.
Since
the
exemption
requires
aggregate
nonproprietary capital contributions to be under
$400,000, the NFA had legitimate grounds to confirm

App.9a
that Chazoneering’s $1.6 million investment was in
fact proprietary — that is, legitimate business income
of Chazoneering (and thus of Fejokwu) and not merely
customer
contributions
tunneled
through
Chazoneering to invest in the Maria Funds without
proper registration. Inquiring where Chazoneering
got the $1.6 million was fair game. And Fejokwu gave
the NFA reason to be suspicious of its source. He was
cagey about the different Chazoneering entities,
vague on Chazoneering’s actual business, and
protective of only the bank statements that showed
where Chazoneering got these funds. The NFA thus
legitimately insisted on reviewing Chazoneering’s
2011 bank statements to confirm Chazon’s eligibility
for the small-pool exemption.3 Fejokwu’s refusal may
not have been in bad faith, but no doubt it was
voluntary and intentional — which makes it “willful”
in the civil context. See, e.g.. Safeco Ins. Co. of Am. v.
Burr. 551 U.S. 47, 57 & n.9 (2007); Vineland
Fireworks Co. v. Bureau of Alcohol. Tobacco. Firearms
& Explosives. 544 F.3d 509, 517 (3d Cir. 2008)
(“[T]he legal definition of‘willful’... is ‘[voluntary
and intentional, but not necessarily malicious.’”
(quoting Black’s Law Dictionary 1630 (8th ed. 2004))
(alteration in original)). Thus, substantial evidence
3 The NFA hearing panel also concluded that the NFA had
legitimately asked for Chazoneering’s 2011 bank statements
to determine whether Chazon had any unlisted principals.
Fejokwu argues that Chazoneering’s bank statements would
not show anyone’s direct contributions to Chazon or direct or
indirect ownership interests in Chazon, and so could not
show unlisted principals. Since we conclude that confirming
eligibility for the small-pool exemption was a legitimate
regulatory reason to review the 2011 statements, we do not
reach this alternative justification.

App.lOa
shows that Fejokwu and Chazon willfully violated
Rule 2-5.
B.
Fejokwu also argues that the CFTC abused its
discretion by upholding the NFA’s permanent
membership ban.
We will overturn an agency’s
decision to uphold sanctions as an abuse of discretion
only if the sanctions are “unwarranted in law or . . .
without justification in fact.” Butz. 411 U.S. at 185—
86 (alteration in original). “Typically, such an abuse
of discretion will involve either a sanction palpably
disproportionate to the violation or a failure to
support the sanction chosen with a meaningful
statement of ‘findings and conclusions, and the
reasons or basis therefor, on all the material issues of
fact, law, or discretion presented on the record.’”
Reddy v. Commodity Futures Trading Comm’n. 191
F.3d 109, 124 (2d Cir. 1999) (quoting 5 U.S.C. §
557(c)(3)(A)).
Fejokwu first argues that a permanent ban was
palpably disproportionate to the violation,
In
comparison to other cases, he argues, his would be
“the only instance where the NFA has permanently
banned a first-time offender for violating Rule 2-5
without any additional aggravating” circumstances.
Fejokwu Br. 46. But, on the contrary, there were
aggravating circumstances here. Fejokwu was not
merely intransigent; the NFA found him deceptive,
misleading, and intentionally vague. No doubt the
sanction is severe, but given these circumstances we
cannot say that it is unwarranted in law or without
justification in fact. Thus the CFTC did not abuse its
discretion by upholding it.
Fejokwu next argues that the CFTC’s summary
decision fails to provide a meaningful statement of the

App.lla
reason for the sanction. We disagree. Both the NFA
panel and appeals committee discussed the reasons
for the sanction at some length. These decisions
emphasized the importance of Rule 2-5, but also
Fejokwu’s misleading conduct in the investigation and
hearing. The CFTC expressly adopted these findings
and conclusions, and it also held that “the choice of
sanction is neither excessive nor oppressive in light of
the violation and the public interest.” App.7. No
doubt Fejokwu wishes that the NFA had credited
other, mitigating factors, but he still received a
meaningful statement of the findings, conclusions,
and reasons underpinning the chosen sanction. We
cannot conclude that the CFTC abused its discretion
by adopting the NFA’s reasons and upholding its
sanction.
IV.
For these reasons, we will deny the petition for
review.

App.l2a
UNITED STATES OF AMERICA
Before the
COMMODITY FUTURES TRADING
COMMISSION
CHAZON QTA QUANTITATIVE TRADING
ARTISTS, LLC
and
LAWRENCE I.FEJOKWU
v.
NATIONAL FUTURES ASSOCIATION
CFTC Docket No. CRAA 16-01
ORDER DENYING MOTION FOR
RECONSIDERATION
On June 30, 2017, Lawrence Fejokwu filed a motion
to reconsider the Commission's Summary
Affirmance of a disciplinary action undertaken by
the National Futures Association ("NFA") against
Appellants for failure to provide NFA with certain
requested documents during the course of its
investigation, namely the 2011 bank statements of
Chazoneering, an entity affiliated with Appellants.4
4 In affirming NFA’s choice of sanction, the Commission
adopted the rulings of NFA. See NFA Appeals Committee
Decision (Nov. 23, 2015) and NFA Initial Decision (Feb.
27, 2015), available at httns://www.nfa.futures.org/
BasicNet/Case.aspx?entitvid=0424320&case-14BCC00006&
contrib=NFA.

App.l3a
The Commission rules relating to reviews of NFA
decisions do not provide for motions for
reconsideration. 17 C.F.R. Part 171. However, the
Commission has previously said that such relief is
available 'in truly extraordinary circumstances."
Oshinsky v. NFA, [1994-1996 Transfer Binder]
Comm. Fut. L. Rep. (CCH)
26,754, at 44,116,
CFTC No. CRAA 95-1, 1996 WL 411123, at *1
(CFTC July 22, 1996). Such "extraordinary
circumstances" include:
a clear and convincing showing of fraud on
the forum by an adverse party; (2) the
discovery of previously unknown and nondiscoverable evidence which would probably
produce a different result; (3) a factual error
in a jurisdictional ruling (e.g., a respondent's
registration status); or the type of egregious
factual or legal error that goes to the heart
of the challenged decision's validity.
Id. (quoting Kohler v. Merrill Lynch, Pierce,
Fenner & Smith, Inc., [1986-1987 Transfer Binder]
Comm. Fut. L. Rep. (CCH)
23,437 at 33,173
(CFTC Dec. 30, 1986)). None of these circumstances
are present here, and their absence compels denial
of this Motion.
Fejokwu's Motion for Reconsideration is therefore
DENIED. IT IS SO ORDERED.
By
the
Commission
(Acting
Chairman
GIANCARLO
and
Commissioner
BOWEN.)
Christopher J. Kirkpatrick
Secretary of the Commission
Commodity Futures Trading Commission
Dated: July 28, 2017

App.l4a
UNITED STATES OF AMERICA
Before the
COMMODITY FUTURES TRADING
COMMISSION

CHAZON QTA QUANTITATIVE TRADING
ARTISTS, LLC
and
LAWRENCE I.FEJOKWU
v.
NATIONAL FUTURES ASSOCIATION

CFTC Docket No. CRAA 16-01
ORDER OF SUMMARY AFFIRMANCE
Upon review of the record and the parties' appellate
submissions, we have determined that the findings and
conclusions of the National Futures Association are
supported by the weight of the evidence, and the choice
of sanction is neither excessive nor oppressive in light of
the violation and public interest; we therefore adopt
them. Wealsofindthatnoneofthearguments onappeal
present important questions of law or policy.
Accordingly, we summarily affirm the decision of the
National Futures Association without opinion.5
5 Pursuant to Commission Regulation 171.33(b), 17C.F.R.§I
71.33(b), neither the initial decision nor the Commission’s order
of summary affirmance shall serve as a Commission precedent
in other proceedings.

App.l5a
IT IS SO ORDERED.
By the Commission (Acting Chairman
GIANCARLO and Commissioner BOWEN.)

Christopher J. Kirkpatrick
Secretary of the Commission
Commodity Futures Trading Commission
Dated: June 20,2017

App.l6a
NATIONAL FUTURES ASSOCIATION
BEFORE
THE APPEALS COMMITTEE

In the Matter of:
CHAZON QTA QUANTITATIVE TRADING
ARTISTS LLC
(NFA ID #424320),
and
LAWRENCE I. FEJOKWU (NFA ID #274264),
Appellants.
NFA Case No. 14-BCC-006
DECISION
A National Futures Association (NFA) Hearing
Panel (Panel) issued a Decision to commodity pool
operator (CPO) NFA Member Chazon QTA
Quantitative Trading Artists LLC (Chazon) and
Lawrence I. Fejokwu (Fejokwu) in the abovecaptioned matter (collectively, Respondents). The
Panel found that Chazon and Fejokwu willfully
violated NFA Compliance Rule 2-5 by refusing to
provide NFA with bank statements of an entity that
Fejokwu controlled. The Panel permanently barred
Chazon and Fejokwu from NFA membership and
from acting as a principal of an NFA Member and
also permanently barred Fejokwu from association
with an NFA Member.

App.l7a
PROCEDURAL BACKGROUND
On May 15, 2014, NFA's Business Conduct
Committee issued a one- count Complaint against
Chazon and Fejokwu. The Complaint charged that
Chazon and Fejokwu violated NFA Compliance Rule
2-5 by failing to cooperate promptly and fully with
NFA during the course of an examination of Chazon
because they refused to provide bank records NFA
requested in order to determine the source of funds
used to capitalize Chazon and to fund the pools that
Chazon operates and determine whether any other
persons should be listed as principals of Chazon. On
June 30, 2014, Chazon and Fejokwu filed an Answer
denying the material allegations in the Complaint.
The Panel conducted a hearing on November 7,
2014. Chazon and Fejokwu were not represented by
counsel.6 Arthur Kenigstain, a Manager in NFA's
Compliance Department, testified for NFA and
Fejokwu testified on his and Chazon's behalf. A
number of documents were also admitted into
evidence.
The panel issued its decision on February 27, 2015.
Chazon and Fejokwu filed notices of appeal with the
Committee seeking review of both the finding of
violations that the Panel made against them and the
sanctions that it imposed for those violations.
Chazon and Fejokwu have made two requests and
NFA has made one related request to this Committee
that we resolve before considering the merits of the
appeal. First, in their Notice of Appeal, Chazon and

6 Chazon and Fejokwu are represented by counsel in this
appeal.

App.l8a
Fejokwu requested an opportunity to present oral
argument. In our March 18, 2015 Order setting the
briefing schedule, we stated that we would consider
this request after reviewing the briefs. We now deny
that request. The issues that are presented in this
appeal are straightforward and the parties' briefs
clearly present the issues involved. Oral argument
by the parties would not materially assist this
Committee in making its decision.
Second, after filing their initial brief and shortly
before NFA's brief was due, Chazon and Fejokwu
filed a motion to supplement the record with a
document that was an attachment to an e-mail chain.
The e-mail chain had been accepted into evidence by
the Panel, but neither NFA nor Chazon nor Fejokwu
sought to admit the attachment into evidence. NFA
did not oppose this motion but requested leave to file
a surreply brief to address any arguments that
Chazon and Fejokwu made in their reply brief based
upon this attachment should we grant the motion to
supplement the record. Chazon and Fejokwu did not
oppose NFA's request to file a surreply brief. Solely
based upon the fact that all parties are in agreement,
we grant both the motion to supplement the record
and the request to file the surreply brief.7
II
DISCUSSION

7 Our ruling does not reflect in any way whether or not we
would have granted the motion in the absence of unanimous
agreement by the parties.

App.l9a
Chazon was a CPO Member of NFA and Fejokwu
was a principal and associated person of Chazon and
an NFA Associate Member during the period covered
by the Complaint. Two foundations, Vision New
Africa and Vision New Nigeria (collectively, the
Vision Foundations), were also principals of Chazon.8
Chazon operated two pools, the Maria Desatadora
Nos Master Investment SA (Maria Master Fund) and
the Maria Desatadora Umbrella Fund (Maria
Umbrella Fund). The Maria Umbrella Fund acted as
the feeder fund for the Maria Master Fund.
NFA commenced an examination of Chazon in
March 2014 in response to Chazon's request to
withdraw from registration as a CPO and from NFA
Membership. The purpose of the examination was to
ensure that Chazon qualified for the exemption from
CPO registration it claimed in its request to
withdraw from registration and membership; to
examine the large amount of losses sustained by the
fund in 2013; and to determine the reason why the
required year-end certified audits of both pools were
outstanding.
In response to NFA staffs questions, Fejokwu
informed the examination team that the Vision
Foundations were the only two participants that the
pools had ever had and that the Foundations were set
up for charitable purposes for his home country of
Nigeria. Fejokwu also represented that the Vision
Foundations were 100 percent endowed by him.
Subsequently, the examination team sent Fejokwu
an e-mail with an initial list requesting certain
documents pertaining to the Vision Foundations,
Chazon, and the two pools. Fejokwu responded very
See infra, p 6.

App.20a
promptly to the e-mail that same night and provided
NFA with satisfactory responses to the specific
document requests.
The examination team also sent a request for
information to all NFA Member futures commission
merchants (FCMs) and Forex Dealer Members
instructing those firms to notify NFA if the firm
currently or had ever carried any accounts in the
name of Fejokwu, Chazon, the Vision Foundations,
the pools, or other affiliated entities. NFA received
responses from several FCMs, which confirmed the
information Fejokwu had provided to NFA - that the
pools had started with $1.6 million in 2011 and that
their current value was approximately $125,000.
After reviewing the monthly statements and
speaking with Fejokwu, the examination team
determined that the entire decline in assets was due
to trading losses. No other funds were invested after
the initial $1.6 million in 2011, and there were no
redemptions by any third parties.
As part of Chazon's withdrawal request, Fejokwu
claimed that Chazon qualified for an exemption from
CPO registration for operating small pools,9 which
among other requirements is limited to a CPO that
has received aggregate capital contributions for all

9 Commodity Futures Trading Commission (CFTC or
Commission) Regulation 4.13(a)(a) exempts from CPO
registration persons who operate one or more small pool(s)
that has received less than $400,000 in aggregate capital
contributions and that have no more than fifteen
participants in any one pool. In determining whether the
aggregate capital contributions exceed $400,000,
proprietary funds (e.g., funds contributed by the pool, the
pool's commodity trading advisor, principals and certain
related family members) may be excluded.

App.21a
its pools that do not exceed $400,000. Because the
funds held by Chazon's pools initially exceeded the
$400,000 threshold, Chazon would not qualify for the
exemption unless all funds in excess of $400,000 were
proprietary funds.
NFA therefore requested the
Vision Foundations' bank statements to determine
their source of funding and the pools' bank
statements to confirm that the pool funds had been
received from the Vision Foundations.
Fejokwu
provided the requested information, including
statements from Barclays, which appeared to show
that both Vision Foundations were directly or
indirectly funded by an entity, Chazoneering S.A.,
and confirmed that the $1.6 million coming into the
pools in 2011 was from the Vision Foundations.
Based upon this, the examination team concluded,
albeit mistakenly, that Chazoneering LLC was the
ultimate source of the $1.6 million invested in the
pools.
Additionally, the team believed that Chazoneering
LLC was a former CPO and NFA Member that had
been owned and operated by Fejokwu from 2003 until
it withdrew in 2005. Fejokwu told the team that
Chazoneering LLC continued to operate as an LLC
and was 100 percent owned by him.
This information caused the team to request the
2011 Chazoneering LLC bank statements to verify
that Fejokwu had funded Chazoneering LLC 100
percent. This was necessary to determine if the funds
initially held in Chazon's pools were in fact
proprietary funds because if they were not, Chazon
would not be eligible for the small pool exemption.
Fejokwu refused to provide these documents despite
the team's repeated requests, explanations and

App.22a
admonishments that NFA Compliance Rule 2-5
required him to comply with the request.
Shortly thereafter, NFA learned for the first time
from Fejokwu that the Vision Foundations were
principals of Chazon. The team informed him that
telling the team that the Vision Foundations were
principals was not the same thing as listing them as
principals in NFA's online registration system (ORS).
On April 3, 2015, the Vision Foundations were listed
as principals of Chazon in ORS. The team renewed
its requests for the 2011 Chazoneering LLC bank
statements and expanded the request to include
statements from 2013 through the present to
determine whether or not any other individuals
indirectly contributed capital to Chazon through
Chazoneering
LLC's funding of the Vision
Foundations. Again, Fejokwu refused to provide the
statements and the Complaint followed.
At
the
hearing,
Fejokwu testified
that
Chazoneering LLC was not the entity reflected in the
Barclays records and that the entity was in fact
Chazoneering S.A. Fejokwu further testified that
when NFA staff asked for information and
documentation related to "Chazoneering," he did not
inform the team that there were two separate
Chazoneering entities. He also testified that he was
careful never to use the term "Chazoneering LLC"
when responding to the team's questions. However,
Fejokwu also testified that he had control over the
bank records of Chazoneering S.A., although he was
not certain that he could get copies of that entity's
bank statements because the accounts are not very
active. Finally, Fejokwu testified that it is "none of
NFA's business" how Chazoneering S.A. earned its

App.23a
money, but he did state that it was involved in trade
finance.
The attachment that we have allowed to be added
to the record consists of an e-mail chain (Attachment
E-mail Chain) that was attached to a different e-mail
contained in NFA's Exhibit 8 introduced into
evidence at the hearing. However, NFA Exhibit 8 did
not contain the Attachment E-mail Chain. One of
the e-mails in the Attachment E-mail Chain is from
Chris Alford at Barclays to Fejokwu and appears to
contain a description of transactions in and between
the Vision Foundations and Chazoneering S.A.
accounts at Barclays.
A. Chazon and Fejokwu failed to promptly and
fully cooperate with an NFA examination
1. Chazon and Fejokwu failed to provide the
2011 Chazoneering S.A. bank statements requested
by NFA
Arthur Kenigstain, a member of the examination
team, testified that Fejokwu did not provide the
requested Chazoneering10 bank statements, which
testimony Fejokwu did not refute. Indeed, Fejokwu
admits in paragraph 9 of his Answer to the Complaint
that he did not provide the requested statements.
Additionally, he also testified that he refused to
provide the 2011 Chazoneering bank statements and

10 From this point forward, the use of the term "Chazoneering"
refers to either Chazoneering LLC or Chazoneering S.A.
unless the name of one of the specific Chazoneering entities is
used.

App.24a
that he sent an e-mail to the examination team
stating that he was not going to provide the
statements.
In fact, Fejokwu went to great lengths in his
testimony to explain why he did not provide the bank
statements. He testified that the requested bank
statements would not prove what NFA wanted them
for; that NFA did not need the statements; and that
NFA had no right to obtain the Chazoneering bank
statements. Similarly, in their brief, Chazon and
Fejokwu state that the only documents that Fejokwu
did not provide concerned Chazoneering, a non-NFA
Member, and only after "NFA's requests became
unreasonably burdensome, harassing, of no, or only
remote theoretical relevance to the scope of NFA
oversight. ..." (Respondents' Brief, p. 7).
In contrast to all of this evidence, Chazon and
Fejokwu now assert that in response to Fejokwu's
request for the Chazoneering bank statements,
Barclays provided those statements "as in-line text in
an e-mail at Barclay's choice."
We reject the
characterization
of the information in the
Attachment E-mail Chain as bank statements. At
best, that information can be characterized as a
. description of transactions that occurred in two
accounts held at Barclays. Moreover, the Attachment
E-mail Chain is not the functional equivalent of a
bank statement. For example, it is not clear from the
document whether or not all of the transactions in
the Chazoneering S.A. account are listed, as would be
the case with a bank statement.
Finally, Chazon and Fejokwu's counsel asserts in
their Reply Brief that the Attachment E-mail Chain
evidences that all the deposits were between internal
accounts at Barclays controlled by Fejokwu because

App.25a
it contains the term "PBA", which appears in one of
the transactions. According to Chazon and Fejokwu's
counsel, "PBA" is commonly known to be "Personal
Bank Account." However, an attorney's statement in
a brief is not evidence, and therefore we cannot
conclude that the Attachment E-mail Chain
demonstrates that Chazon and Fejokwu, in effect,
provided the information requested by NFA.
We therefore find that Chazon and Fejokwu failed
to provide the 2011 Chazoneering S.A. bank
statements that the NFA exam team requested.
2.
Chazon and Fejokwu's failure to
provide the requested records violated NFA
Compliance Rule 2-5
In Weinberg v. National Futures Association, 1986
WL 66179 (CFTC June 6, 1986), the Member refused
to provide his personal financial records, as opposed
to the Member's financial records. The CFTC held
that the Member violated NFA Compliance Rule 2-5
because NFA had a legitimate need for those records.
Weinberg v. National Futures Association, 1986 WL
66179 at p. 2. Thus, if NFA had a legitimate need for
the 2011 Chazoneering bank statements, the fact
that they are not Chazon's records is of no
consequence since Fejokwu controlled the entities to
which the requested records belonged. The only issue
is whether or not NFA had a legitimate need for these
requested records.
NFA asserts two reasons for requesting the 2011
Chazoneering bank statements. First, Chazon and
Fejokwu had filed a Form 7-W to request Chazon's
withdrawal from registration and NFA membership
claiming that Chazon was exempt from registration.

App.26a
Chazon represented that it was exempt pursuant to
CFTC Regulation 4.13(A)(2) and that "THE POOL'S
ASSETS HAVE BEEN BELOW THE $400K
THRESHOLD ALL YEAR. ...".
(Respondents'
Exhibit 7).
CFTC Regulation 4.13(a)(2) exempts from CPO
registration persons who operate one or more small
pool(s) that has received less than $400,000 in
aggregate capital contributions and that have no
more than 15 participants in any one pool.
In
determining whether
the aggregate
capital
contributions exceed $400,000, proprietary funds
(e.g., funds contributed by the pool operator, the
pool's commodity trading advisor, principals and
certain related family members) may be excluded.
The capital contributions to the pools that Chazon
operated amounted to approximately $1.6 million.
Consequently, to be eligible for the 4.13(a)(2)
exemption, no more than $400,000 could have been
contributed by outside investors, or said another
way, Chazon and its principals (or certain relatives
not involved in this matter) had to have contributed
about $1.2 million, i.e., proprietary funds. NFA
sought to confirm that this was the case and
requested records in order to do so. Records that
Chazon and Fejokwu did provide showed that the
Vision Foundations contributed all of the pools'
capital and that a substantial amount of that money
came from Chazoneering. However, without records
that showed the source of the Chazoneering funds,
the team was unable to determine whether or not
Chazoneering funds came from Chazon or its
principals and therefore resolve the question of
whether or not the pools were funded with
proprietary funds. Consequently, the team requested

App.27a
Chazon and Fejokwu to produce the 2011
Chazoneering bank statements, which it refused to
do.
Second, during the examination, Fejukwo advised
the exam team that the Vision Foundations were
principals of Chazon, and the team advised him that
telling them that the Vision Foundations were
principals of Chazon and listing them as principals
of Chazon in NFA's ORS were not the same thing.11
Chazon
disclosed
Vision
subsequently
the
Foundations as principals of Chazon in ORS.
However, individuals who indirectly contribute more
than 10% of a CPO's capital are also principals,
whether or not they do so directly or indirectly
through entities.
Because Chazon disclosed the
Vision Foundations as principals of Chazon, NFA
had a regulatory interest in determining whether or
not any individual besides Fejokwu was a principal
of Chazon by virtue of capital contributions made
through the Vision Foundations. Since Fejokwu had
told the team that the Vision Foundations were
funded 100 percent by Chazoneering, NFA now had
a second reason for needing the Chazoneering bank
statements.
Based on the foregoing, we hold that NFA has
legitimate regulatory reasons for requesting the
Chazoneering S.A. bank statements.
Chazon and Fejokwu argue that the Complaint
contained no allegations of customer harm or fraud.
11 NFA Registration Rule 204(a)(l)(A)(i) requires applicants
for registration as CPOs to file a Form 7-R. Form 7-R
requires disclosure of principals that are entities. NFA
Registration Rule 208(a) requires, in pertinent part, that
registrants amend their Form7-R to disclose new principals
that are entities.

App.28a
(Respondents' Brief, p.8). Chazon and Fejokwu also
assert that they fully cooperated until NFA's
requests
for
records
became
"unreasonably
burdensome, harassing, of no, or only remote
theoretical relevance to the scope of NFA oversight."
(Respondents' Brief, p.7). Finally, they claim that
they "demonstrated responsible conduct and diligent
cooperation until the burden of requests became
unreasonable and subject to a good faith
disagreement on their relevance," and that Fejokwu's
testimony at the hearing "demonstrated that
Appellants throughout the examinations sought to
comply with NFA questions and documents."
Finally, Chazon and Fejokwu argue that the
Complaint contained no allegations of customer
harm or fraud. (Respondents' Brief, p.8).
Compliance Rule 2-5 makes no reference to
customer harm or fraud. Rather, the rule specifically
requires that a Member "cooperate fully and
promptly with anv NFA investigation, inquiry, audit,
examination or proceeding regarding compliance
with NFA requirements...." (emphasis added). Thus,
while NFA's review of the documents which Chazon
and Fejokwu did provide did not uncover fraud or
customer harm, this has nothing to do with the
question of whether they violated Compliance Rule
2-5.
Moreover, the 2011 Chazoneering bank
statements may or may not have included
information that would have led to a discovery of
fraud or customer harm. It is their own refusal to
provide the requested bank statements that prevents
us from concluding, as Chazon and Fejukwo assert,
that there was no fraud or customer harm.
As to Chazon and Fejokwu's supposed responsible
conduct and diligent cooperation, we note that the

App.29a
record demonstrates the exact opposite. At the time
the examination team made its initial request for the
bank statements, the team thought, incorrectly, that
Chazoneering LLC was the entity involved, so the
specific request was made for the Chazoneering LLC
bank statements. However, Fejokwu knew that the
team was mistaken and that Chazoneering S.A. was
the correct entity, but rather than inform it of the
error, he allowed the team to continue to act on its
mistaken belief.
Moreover, in his communications with the team, he
was careful to use the term "Chazoneering" rather
than Chazoneering LLC Chazoneering S.A.
Therefore, we hold that Chazon and Fejokwu's
failure to provide the 2011 Chazoneering bank
statements is a violation of NFA Compliance Rule 25.
B. The penalty imposed by the Hearing Panel is
appropriate
Chazon and Fejokwu assert that the Hearing Panel
abused its discretion by permanently barring them
from NFA and from acting as a principal of an NFA
Member. They argue that their failure to provide the
bank statements was not willful and contumacious or
tied to any wrongdoing alleged by a customer or
NFA. They claim that the penalty is not justified by
the violation and request this Committee to vacate
the penalty.
NFA Compliance Rule 3-14(b) provides that the
Appeals Committee may increase, decrease or set
aside the penalties that are imposed by a Hearing
Panel, or may impose other and different penalties as

App.30a
it sees fit. Acting pursuant to this authority, this
Committee has exercised its authority to modify or
increase penalties imposed by Hearing Panels on a
number of occasions when it has determined that the
penalty imposed by a Hearing Panel was not an
appropriate response to the violations that were
found to have been committed.12
NFA has consistently followed the factors
enumerated by the CFTC in a 1994 Policy Statement,
which
provides guidance to self-regulatory
organizations (SROs) regarding the fashioning of
appropriate sanctions.13 The Policy Statement lists
several factors that may be considered in
determining appropriate sanctions on a case- by-case
basis and comments that although the list is an
"effective tool", it does not require uniformity among
all SROs in the factors considered. Factors set out in
the Policy Statement that we find to be particularly
relevant to determining appropriate sanctions
include:

12 See, e.g.j In the Matter of Commonwealth Financial Group
Inc., et al.. NFA Case Nos. 96-APP-003 and 004, on appeal
from 94-BCC-013 (1997); In the Matter of Diversified Trading
Systems. Inc.. NFA CCase No. 92-APP-009, on appeal from
92-BCC- 014 (1993); In the Matter of Johnny L. Johnson. Jr..
NFA Case No. 97-APP-003, on appeal from 96.-BCC-014
(1998); and In the Matter of Universal Commodity
Corporation. NFA Case Nos. 98-APP-001, 002 and 003, on
appeal from 95-BCC-020 (2000).
n
See, CFTC Policy Statement Relating t.o the Commission's
Authority to Impose Civil Monetary Penalties and Futures
Self-Resrulatorv Organizations' Authority to Trrmose Sanction:
Penalty Guidelines. T1994-1996 Transfer Binder] Comm. Fut.
L. Rep (CCH) 1126,265 at 42,248 (CFTC Nov. 1994).

App.31a
• The gravity of the offense; and
• Whether the sanction will be sufficiently
remedial to deter future violations by the
respondent and others.
This Committee and NFA's Hearing Panels
have consistently held that NFA Compliance Rule 25 is the foundation for NFA's effectiveness as a selfregulatory organization. See, e.g., In the Matter of H.
James Kyle, Jr., NFA Case No. 87-BCC-016, Appeals
Committee Decision (Sept. 28,
1988) (the
effectiveness of NFA's enforcement program is
largely dependent on the prompt and full cooperation
of Members and Associates under NFA Compliance
Rule 2-5); In the Matter of Rex Nowell, NFA Case No.
88-BCC-021, Mar. 10, 1989 (NFA Compliance Rule
2-5 requiring Members and Associates to cooperate
with NFA in investigations is the linchpin of NFA's
statutory responsibilities); In the Matter of Denver
Difference Energy LLC, et al., NFA Case No. 12-BCC002, Dec. 18, 2012 (failing to cooperate strikes at the
very heart of NFA's oversight abilities).
As we have previously stated:
As an SRO, NFA must rely on its
Members' adherence to their obligations
under NFA Compliance Rules to
cooperate promptly and fully with NFA
investigations and to refrain from
submitting
false
or
misleading
information to their regulator.
Any
Member's failure to fully and candidly
abide by these important obligations is
always a matter of great concern. For this

App.32a
Committee to treat such violations
otherwise would undermine NFA's ability
to provide the level of oversight that its
mission of protecting the public, the
membership and the markets requires.
In the Matter of Forex Liquidity (Robert
Gray), NFA Case No. 08-BCC-023,
Appeals Committee Decision (Sept. 12,
2011) at p. 9.
We find Chazon and Fejokwu's argument that the
penalty is too severe in light of their violation
unpersuasive. Although they claim that their failure
to provide the 2011 Chazonering bank statements
was not willful, the evidence proves otherwise.
Fejokwu made a conscious decision to withhold
those records based on his own assessment as to
whether NFA had a right to those documents and
whether the documents were relevant to NFA's
inquiry. Moreover, Fejokwu knowingly misled the
examination team by failing to advise them that
Chazoneering S.A. not Chazoneering LLC had
contributed funds to the Vision Foundations.
Their claim that no customer harm or fraud was
revealed
by the examination
is similarly
unpersuasive. As a general matter, a Member might
refuse to produce requested records in an NFA
examination to prevent NFA from uncovering
customer harm or fraud. While there is no evidence
in the record that Chazon and Fejokwu in fact
committed fraud or harmed customers, that may
simply be because the documents they refused to
produce contained or led to such evidence. It is for
this reason, among others, that Members cannot be

App.33a
permitted to pick and choose which records to
produce and which not to produce.
We find that Chazon and Fejokwu's deliberate
refusal to comply with NFA's legitimate request for
records is a very grave violation of NFA Compliance
Rule 2-5.
Because of the significance of NFA
Compliance Rule 2-5 to NFA's self-regulatory
function, we also find that a significant sanction is
necessary to deter future violations of NFA
Compliance Rule 2-5 by Chazon, Fejokwu or others.
A permanent bar from NFA membership and from
acting as a principal of an NFA Member is completely
appropriate in light of the facts and circumstances of
this case.
Ill
CONCLUSION
After considering the record below, as amended by
the addition of the Attachment E-mail Chain, and
the arguments raised by the parties on appeal, the
Appeals Committee affirms the Panel's findings of
violations and the sanctions that it imposed on
Chazon and Fejokwu in all respects.
This Decision shall be effective 30 days after it is
served on Chazon and Fejokwu as prescribed by
CFTC Regulation 171.9. They may appeal this
Decision to the Commission under CFTC
Regulation 171.23 by filing a Notice of Appeal and
the required filing fees with the Commission within
35 days after the Decision is mailed.
Under CFTC Regulation 171.22, they may petition
the Commission to stay the effective date of this
Decision by filing a petition, a Notice of Appeal, and

App.34a
the required filing fees with the Commission within
fifteen days after this Decision is mailed.
Under the provisions of CFTC Regulation 1.63, the
sanctions imposed in this Decision render Fejokwu
ineligible to serve on a disciplinary committee,
arbitration panel, oversight panel or governing board
of any self-regulatory organization, as that term is
defined in CFTC Regulation 1.63.
NATIONAL FUTURES ASSOCIATION
APPEALS COMMITTEE
By:
William F. McCoy
Chairman
Date: November23,2015

App.35a

NATIONAL FUTURES ASSOCIATION
BEFORE THE
HEARING PANEL
In the Matter of:
CHAZON QTA QUANTITATIVE TRADING
ARTISTS LLC
(NFAID #424320)
and
LAWRENCE I. FEJOKWU
(NFAID#2 74264)
Respondents,
NFA Case No. 14-BCC-006

DECISION
On November 7, 2014, a designated Panel of the
Hearing Committee (Panel) held a hearing to
consider the charges
against Chazon QTA
Quantitative Trading Artists LLC (Chazon) and
Lawrence I. Fejokwu (Fejokwu). The Panel issues
the following Decision under National Futures
Association (NFA) Compliance Rule 3-10.
PROCEDURAL BACKGROUND
On May 15, 2014, NFA's Business Conduct
Committee issued a one- count Complaint against
Chazon and Fejokwu. The Complaint charged that
Chazon and Fejokwu violated NFA Compliance

App.36a
Rule 2-5 by failing to cooperate promptly and fully
with NFA during the course of an examination of
Chazon because they refused to provide bank
records NFA requested in order to determine the
source of funds used to capitalize Chazon and to
fund the pools that Chazon operates and determine
whether any other persons should be listed as
principals of Chazon. On June 30, 2014, Chazon and
Fejokwu filed an Answer denying the material
allegations in the Complaint.
II
EVIDENCE PRESENTED AT THE HEARING
NFA presented one witness at the hearing and
introduced a number of documents into evidence. At
the hearing, Fejokwu testified on behalf of Chazon
and himself and introduced a number of documents
into evidence. A summary of the relevant evidence
follows:
Arthur Kenigstain
Arthur Kenigstain (Kenigstain), a Manager in
NFA's
Compliance
Department,
testified
substantially as follows:
Chazon has been a registered commodity pool
operator (CPO) and an NFA Member since January
2013. Fejokwu is an associated person (AP) and
listed principal of Chazon. Fejokwu has been a
listed principal of Chazon since December 2012 and
an AP since January 2013. Vision New Africa and
Vision New Nigeria are two
foundations
(collectively, the Vision Foundations) that are also
principals of Chazon. Chazon operated two pools, the

App.37a
Maria Desatadora Nos Master Investment SA
(Maria Master Fund) and the Maria Desatadora
Umbrella Fund (Maria Umbrella Fund), which were
active at the time NFA staff commenced its exam of
the firm in March 2014. The Maria Umbrella Fund
acted as the feeder fund for the Maria Master Fund.
Chazon is currently pending withdrawal as a CPO
and NFA Member. NFA placed a hold on Chazon's
withdrawal for a number of reasons, including: NFA
wanted to ensure that Chazon qualified for the
exemption from CPO registration it claimed; the
large amount of losses sustained by the fund in 2013;
and the fact that the required year-end certified
audits of both pools were outstanding.
Kenigstain was the manager assigned to the
examination of Chazon. On March 25, 2014, the
examination team attempted to visit Chazon's main
office location in New York City and Fejokwu's home
address in New Jersey. Since Fejokwu was not at
either location, the examination team reached out to
him by e-mail, and Fejokwu responded within the
hour.
The examination team then made
arrangements to speak with Fejokwu later that
afternoon by phone.
During the afternoon phone conversation, the
examination team learned that Fejokwu was in
England.
Kenigstain stated that Fejokwu was
cooperative in answering the questions posed by the
examination team,
Fejokwu informed the
examination team that the Vision Foundations were
the only two participants that the pools had ever had,
and that the Foundations were set up for charitable
purposes for his home country of Nigeria. Fejokwu
also represented that the Vision Foundations were
100 percent endowed by him.

App.38a
After the March 25 phone call, Kenigstain sent
Fejokwu an e-mail with an initial list requesting
certain documents pertaining to the Vision
Foundations, Chazon, and the two pools (NFA
Exhibit 4).
Kenigstain stated that Fejokwu
responded very promptly to the e-mail that same
night and provided NFA with satisfactory responses
to the specific document requests.
On March 26, the examination team sent a request
for information to all NFA Member Futures
Commission Merchants (FCMs) and Forex Dealer
Members (FDMs) instructing those firms to notify
NFA if the firm currently or had ever carried any
accounts in the name of Fejokwu, Chazon, the Vision
Foundations, the pools, or other affiliated entities.
NFA received responses from several FCMs, which
confirmed the information Fejokwu had provided to
NFA - that the pools had started with $1.6 million
in 2011 and that their current value was
approximately $125,000.
After reviewing the
monthly statements and speaking with Fejokwu, the
examination team determined that the entire decline
in assets was due to trading losses. Kenigstain also
stated that no other funds were invested after the
initial $1.6 million in 2011, and there were no
redemptions by any third parties.
As part of Chazon's withdrawal request, Fejokwu
claimed that Chazon qualified for an exemption from
CPO registration for operating small pools,14 which
14 Commodity Futures Trading Commission (CFTC)
Regulation 4.13(a)(a) exempts from CPO registration persons
who operate one or more small pool(s) that has received less
than $400,000 in aggregate capital contributions and that
have no more than 15 participants in any one pool. In
determining whether the aggregate capital contributions

App.39a
among other requirements is limited to a CPO that
has received aggregate capital contributions for all
its pools that do not exceed $400,000. Because the
funds held by Chazon's pools initially exceeded the
$400,000 threshold, Chazon would not qualify for the
exemption unless all funds in excess of $400,000
were proprietary funds. As a result, NFA requested
bank statements for the Vision Foundations to
determine their source of funding and the pools' bank
statements to confirm that the pool funds had been
received from the Vision Foundations.
Fejokwu
provided the requested information, which showed
that both Vision Foundations were directly or
indirectly
funded
by
Chazoneering
LLC
(Chazoneering)15 and confirmed that the $1.6 million
coming into the pools in 2011 was from the Vision
Foundations.
Kenigstain
concluded
that
Chazoneering LLC was the ultimate source of the
$1.6 million invested in the pools. Kenigstain
believed that Chazoneering LLC was a former CPO
and NFA Member that had been owned and
operated by Fejokwu from 2003 until it withdrew in
2005.

exceed $400,000, proprietary funds (e.g., funds contributed
by the pool, the pool's commodity trading advisor, principals
and certain related family members) maybe excluded.
15 The bank statements showing the initial funding actually
refer to an entity called Chazoneering SA. At the hearing,
Fejokwu pointed out this difference during Kenigstain's
testimony and represented that Chazoneering LLC and
Chazoneering SA were different entities. As discussed
during Fejokwu's testimony, Fejokwu never pointed out this
difference to NFA staff during their examination. For
purposes of this Decision, our reference to Chazoneering
includes both Chazoneering LLC and Chazoneering SA

App.40a
Kenigstain stated that Fejokwu represented to
NFA that Chazoneering LLC continues to operate as
an LLC and is 100 percent owned by him.
When the examination team learned that the
Vision Foundations were actually funded by
Chazoneering, they requested Chazoneering's 2011
bank statements and informed Fejokwu that they
needed the statements to confirm Fejokwu's
representations that Chazoneering was 100 percent
funded by him (NFA Exhibit 8).
Fejokwu responded that he would not provide the
requested Chazoneering bank statements because
he had already provided sufficient support to show
that the Vision Foundations were 100 percent
funded by him and because NFA should accept his
verbal representations (NFA Exhibit 9). Over the
next few days the examination team and Fejokwu
had a series of back-and-forth correspondences,
with the examination team making multiple
requests for the Chazoneering bank statements and
informing Fejokwu of the requirement under
Compliance Rule 2-5 that he cooperate fully with an
NFA examination. Fejokwu refused to comply with
these requests. However, he agreed to meet with
the examination team at his personal residence in
New Jersey on April 7.
At the April 7 meeting, Fejokwu informed the
examination team that he had listed the Vision
Foundations as principals of Chazon on April 3.
Kenigstain stated that Fejokwu had also informed
him in an April 1 e-mail that the Vision Foundations
were principals; however, Kenigstain noted that
informing him that the Vision Foundations were
principals was different than listing them as
principals in the online registration system.

App.41a
Kenigstain stated the fact that the Vision
Foundations were listed principals of Chazon was
significant
because
NFA now needed the
Chazoneering bank statements for a second reason,
to determine if any individuals investing in
Chazoneering indirectly contributed more than ten
percent to Chazon that would require such
individual to also be listed as a principal. According
to Kenigstain, the only way NFA could determine
whether there were any unlisted principals was by
looking at the Chazoneering bank statements.
The examination team stressed to Fejokwu the
importance of the Chazoneering bank statements
and explained that they needed them to determine
whether the source of the funds in the pools was
proprietary and to determine whether any other
individuals were required to be listed as principals
of Chazon. Fejokwu represented that he disagreed
with NFA's request, but would consider it.
Kenigstain agreed that on April 7 he stated that
he was requesting the Chazoneering bank
statements to identify the source of Chazoneering's
funding.
Kenigstain acknowledged that an e-mail sent to
Fejokwu after the April 7 meeting indicated that the
examination
team
was
requesting
the
Chazoneering statements because they wanted to
confirm that Chazoneering was not required to be
registered. Kenigstain explained that as the
examination evolved, there were other reasons why
NFA needed the bank statements, including
determining whether there were any potential
registration issues after it learned that the Vision
Foundations were listed principals of Chazon.

App.42a
After the April 7 meeting, the examination team
sent Fejokwu another e-mail requesting the
Chazoneering bank statements from 2011 and
January 2013 to current,
The 2011 bank
statements were important, because that was when
Chazoneering made the investment in the Vision
Foundations. In response, Fejokwu replied that he
still disagreed with NFA's request for the
Chazoneering bank records, but would make a one­
time exception and would provide NFA with the
2013 to current Chazoneering bank statements
(NFA Exhibit 10). Kenigstain stated that this did
not fully satisfy NFA's request, because NFA had
also requested Chazoneering's 2011 bank statements
when it initially funded the Vision Foundations'
investment in the pools.
The examination team sent Fejokwu another email on April 8 making it clear that the requests for
the Chazoneering bank statements and the Vision
Foundations' bank statements were not optional
(NFA Exhibit 11) and explaining why NFA needed
this information. The e-mail included a link to the
CFTC regulation regarding indirect ownership of a
Member firm and bolded language informing
Fejokwu of his obligations under NFA Compliance
Rule 2-5. Fejokwu responded that he "absolutely
will not provide" the requested Chazoneering bank
statements or bank statements for the Vision
Foundations (NFA Exhibit 11).
NFA issued an examination report to Chazon in
May 2014 indicating that Chazon and Fejokwu had
failed to cooperate fully with NFA during an
examination by not providing the requested bank
statements (NFA Exhibit 12). NFA did not receive
the 2011 bank statements for Chazoneering or any

App.43a
other documentation from Fejokwu after issuing the
May examination report.
The examination team spoke with a CFTC staff
member regarding the potential registration
exemption, but did not discuss the issue of the Vision
Foundations being principals. The CFTC staff
member informed them that once Fejokwu
relinquished ownership of his investment and
provided it to the Vision Foundations, the funds
were no longer proprietary.
According to Kenigstain, the examination team
explained to Fejokwu multiple times in multiple emails why NFA needed the statements and
referenced the specific applicable regulations. Each
time Fejokwu adamantly denied NFA's request.
Kenigstain acknowledged that he may have stated
during the April 7 meeting that NFA wanted to ask
Fejokwu for Chazoneering's bank statements first
before sending a Request for Information to FCM
Members when NFA had actually already sent a
Request for Information to FCMs on March 26.
Kenigstain explained, however, that NFA does not
have a responsibility to disclose to Members when it
reaches out independently to other Member firms
and does not typically disclose this information.
Kenigstain also acknowledged that during the
course of NFA's examination of Chazon, the initial
reasons NFA indicated that they need the bank
statements of Chazoneering and the Vision
Foundations changed. Kenigstain noted, however,
that this was not unusual because during the course
of an examination, the examination team often
learns of new information that creates new requests

App.44a
or the information provided results in follow up
requests.
Lawrence Feiokwu
Fejokwu testified substantially as follows:
Fejokwu was born in Nigeria and has been living
in the United States for 21 years. He attended
school in Virginia and began working at Morgan
Stanley as an AP in 1996. Fejokwu left Morgan
Stanley in 1997 to start his own business known as
Chazon Africa Investors, which was registered with
NFA at one time. Fejokwu also started the Vision
Foundations in 1997.
According
to
Fejokwu,
Chazoneering was
conceived in 1997. Fejokwu referred to a document
entitled "Vision Statement" dated 1997 (Respondent
Exhibit 4), which indicated that Chazon New Africa
Investors is a member of the Chazon New Africa
Investment Group. Fejokwu intended that Chazon
New Africa Investors would be an investment
manager and the Vision Foundations would be sister
entities. Fejokwu noted that the Vision Statement
stated that Chazon New Africa Investment Group
shall create wealth through its businesses and
ensure the preservation of wealth through its sister
organizations, the Vision Foundations. Fejokwu
stated that this structure is not unusual or
suspicious and is very similar to a foundation in
England where there is a foundation that is also the
owner of an investment management company.16

16 Fejokwu submitted other documentation, which indicated
that he had been involved with the Vision Foundations since
1997.

App.45a
In 2011, Fejokwu launched the Maria Master
Fund and the Maria Umbrella Fund with the
intention to build a track record, grow the business
and go out and raise investor money. According to
Fejokwu he was advised that he did not need to
register as a CPO because his trading was limited
to proprietary money, which he could do through
his own account. Fejokwu indicated that he
registered because he wanted to have the structure
in place so that he would be able to raise investor
money later.
Fejokwu planned on operating the fund with his
money for about a year and then trying to raise other
money. According to Fejokwu the fund began to
incur losses by the nine- month mark, and by March
2013, the fund had an overall loss. At that point,
Fejokwu did not feel there was any point in trying to
raise other money.
Fejokwu filed the pool quarterly report (PQR) with
NFA every quarter, which detailed the pool's current
assets, monthly returns and service providers.
Fejokwu stated that each time he filed this report,
NFA staff contacted him because he usually made a
mistake in the filing. NFA staff would also ask him
about the losses incurred in the pool. Fejokwu
would explain that there were trading losses and
offer to provide trading statements. According to
Fejokwu, NFA staff always appeared satisfied with
his explanation. On cross examination, Fejokwu
acknowledged that by the time he had filed his first
PQR with NFA, the pool had already lost most of its
funds, and he had not provided the rates of return
for the prior year and a half that the pool was
operating.

App.46a
By the end of 2013, the fund was valued at roughly
$125,000. Fejokwu then began to question whether
it made any sense to continue to be registered,
especially since he knew he was required to have an
independent audit of the pool done, which he
estimated would cost approximately $25,000.
Fejokwu noted that it made no sense to spend nearly
a quarter of the pool's assets for this audit since no
one other than himself and NFA would ever see it.
As a result, near the end of December 2013 he
requested a withdrawal of his registration and
attempted to claim the CPO registration exemption
he believed he was entitled to because he was only
managing proprietary money. In the withdrawal
request, Fejokwu indicated that the pool's assets
were less than $400,000 and qualified for the small
pool exemption. He also indicated that the pool could
not bear, the financial requirements of registration.
Since Fejokwu did not hear anything on his
withdrawal request, he contacted NFA in February
2013. An NFA staff person requested some
additional information about the investors in the
pool. Fejokwu confirmed that the investors were the
two Vision Foundations. In early March, Fejokwu
became anxious about the exemption and started
sending frequent e-mails to NFA staff inquiring
about the status of the exemption. At one point, NFA
staff informed Fejokwu that his withdrawal could not
be processed until he submitted the audited
statement for the pool or he obtained a waiver from
the CFTC for filing the statement,
Fejokwu
contacted the CFTC regarding the waiver and
informed NFA that he was waiting for the response
granting the waiver. According to Fejokwu, NFA
staff informed him that once he received a waiver,
NFA would process the withdrawal.

App.47a
Fejokwu stated that while he was attending a
conference in Oxford, England he received an email from NFA staff that informed him that NFA
had been trying to contact him. According to
Fejokwu, he immediately called NFA and they
informed him that NFA was conducting an exam of
his firm. NFA provided him with a list of
documents. Fejokwu stated that NFA staff told
him that they would process his withdrawal if they
found no problems in their review of the documents
he provided.
Fejokwu provided NFA with all of the requested
documents that night.
The next day NFA staff contacted Fejokwu and
informed him that he did not qualify for the
exemption for a pool with less than $400,000 in
contributions because initially the pool had over $1
million in contributions. According to Fejokwu, NFA
staff told him that in order to qualify for an
exemption all the money contributed to the pool had
to come from him or entities he controls. Fejokwu
indicated that he told NFA that all the funds came
from him and he provided bank statements that
showed that the funds deposited into the Vision
Foundations came from Chazoneering, which is an
entity he controls. After he provided these bank
statements to NFA, NFA staff asked for bank
statements showing that Chazoneering was funded
by Fejokwu.
Fejokwu stated that this was an
impossible request because any business account or
personal account is going to show deposits coming
from more than one source. Fejokwu also stated that
he did not want to provide NFA with Chazoneering's
bank statements because Chazoneering is not an
NFA Member and is outside of NFA's jurisdiction.

App.48a
Fejokwu acknowledged on cross examination that
when he originally told NFA staff that he funded the
two Vision Foundations, he did not mention that he
did this through Chazoneering. NFA staff learned
that Chazoneering
funded the two Vision
Foundations after reviewing Barclay's wealth
statements provided by Fejokwu. Fejokwu noted
that the Chazoneering referenced in the Barclay's
wealth statements is not the same entity that was
formerly
an
NFA
Member.
Specifically,
Chazoneering LLC was the NFA Member and the
two Vision
Foundations
were
funded
by
Chazoneering SA. Fejokwu acknowledged that when
NFA staff asked for information and documentation
related to Chazoneering, he never clarified with NFA
that there were two separate entities and he was
careful never to use the term Chazoneering LLC
when responding to NFA. Fejokwu agreed however
that he had control over the bank records of
Chazoneering SA, although he was not certain that
he could get copies of bank statements because the
accounts are not very active. Fejokwu also stated
that although it's "none of NFA's business" how
Chazoneering SA earned its money, he did inform
NFA that it was involved in trade finance.
According to Fejokwu, he then reviewed the
requirements of the exemption and learned that a
CPO would qualify for the exemption if a pool's
funding came from the CPO or its principals.
Fejokwu then believed he did not have to
demonstrate that Chazoneering was funded by him
because he could show that all the funding to the
pool came from the Vision Foundations, which were
principals of the CPO. Fejokwu testified that NFA
knew that he qualified for the exemption because the
principals of the CPO provided all the pool funding

App.49a
so, according to Fejokwu, staff then asked him to
provide Chazoneering's bank statements to show
that Chazoneering was not required to be registered.
NFA also asked him to provide bank statements for
the two Vision Foundations to show that there was
no one who funded the Vision Foundations through
Chazoneering that should also be listed as a
principal.
Fejokwu stated that he cooperated with NFA
throughout this process but in his opinion every time
he provided NFA what was requested, they "moved
the goal post." Fejokwu was surprised when he
received a copy of the May 15, 2014 Complaint
charging him with failing to cooperate with NFA.
Fejokwu stated that in his last communication with
NFA he indicated that he did not agree with NFA
staffs position that he was required to provide the
records relating to the Vision Foundations and
Chazoneering. According to Fejokwu, he told NFA
staff that he was willing to discuss the issue with
NFA staffs superiors, but did not hear back from
NFA. He also asked for an extension of time to
respond to NFA's examination report. He received
the Complaint prior to the extended deadline for him
to respond to the examination report.
Ill
FINDINGS, CONCLUSIONS AND PENALTY
Chazon was a CPO Member of NFA during the
period covered by the Complaint.
As an NFA
Member, Chazon was required to comply with NFA
requirements and is subject to disciplinary
proceedings for violations of NFA requirements that

App.50a
occurred while it was an NFA Member.17 Fejokwu
was a principal and AP of Chazon and an NFA
Associate Member during the period covered by the
Complaint. Therefore, Fejokwu was required to
comply with NFA requirements, and NFA has
jurisdiction over him for purposes of this action.18
NFA's Complaint alleges that Chazon and
Fejokwu violated NFA Compliance Rule 2-5 by
failing to cooperate promptly and fully with NFA
during the course of an examination. Specifically,
the Complaint alleges that Chazon and Fejokwu
refused to produce bank records NFA requested and
viewed as necessary to determine the underlying
source of funds that were used to capitalize Chazon
and fund the pools that it operates and to determine
whether there are other individuals who should be
listed principals of Chazon.
There is no dispute that Chazon and Fejokwu had
control over the Chazoneering bank statements and
that Chazon and Fejokwu refused to provide NFA
with the requested bank statements. The only real
question before the Panel is whether NFA had a
legitimate regulatory reason to request these bank
records. Based on the evidence presented at the
hearing, the Panel concludes that NFA had a
legitimate and important regulatory need to review
the requested bank records and Chazon's and
Fejokwu's refusal to provide the records is a clear
violation of NFA Compliance Rule 2-5.
The Panel heard significant testimony from
Kenigstain on the reasons NFA requested the bank
statements and the Panel believes these reasons
17 See NFA Compliance Rule 2-14.
18 See NFA Bylaw 301(b) and NFA Compliance Rule 2-14.

App.51a
demonstrate that NFA had a legitimate regulatory
purpose in requiring that Chazon and Fejokwu
provide the bank statements.
Chazon is a
registered CPO and an NFA Member. When it
requested to withdraw its registration based on the
small pool exemption, NFA had a legitimate
regulatory reason to determine if Chazon did indeed
qualify for that exemption especially since the
information known to NFA ($1.6 million in initial
capital contributions) on its face indicated that
Chazon did not qualify for this exemption, which is
limited to CPOs that have collected $400,000 or less
in aggregate capital computations. Moreover, the
information NFA had available to it indicated that
the Vision Foundations, which were the only
contributors to the pools, were funded by
Chazoneering, an entity that NFA believed was a
former CPO Member of NFA, which certainly raises
questions on whether that entity was still acting in
that capacity and raising funds from other sources.
At the hearing, Fejokwu "clarified" for the first
time that the Chazoneering entity that funded the
Vision Foundations was not the same entity as
Chazoneering LLC, the former NFA Member. This
clarification, however, does not lessen NFA's
legitimate regulatory interest in learning where
Chazoneering SA obtained the funds to invest in the
two Vision Foundations that are listed principals of
Chazon, particularly since Fejokwu was very vague
on this question, indicating that it was involved in
trade finance and alluding to the fact that its
accounts may show deposits coming from more than
one source. Moreover, the Panel believes that this
raises issues regarding Fejokwu's credibility since he
acknowledged that he never highlighted this
distinction to NFA during the exam and actually

App.52a
appeared to be trying to deceive NFA. Fejokwu
acknowledged that he knew that NFA staff was
trying to make a connection between Chazoneering
SA and Chazoneering LLC, but rather than alert
NFA to the distinction, Fejokwu carefully answered
the questions so as not to identify the distinction.
Fejokwu also took significant issue at the hearing
with the fact that NFA later represented that NFA
needed the Chazoneering statements to ensure that
there were no unlisted principals of Chazon. NFA,
however, "changed" its reasoning in direct response
to Chazon suddenly listing the two Vision
Foundations as principals of Chazon, which Fejokwu
then claimed eliminated any need to further pursue
the funding source because now the pools had been
funded by principals of the CPO and therefore
Chazon qualified for the exemption. The Panel,
however, believes that NFA had every reason to now
be concerned with whether there were any unlisted
principals
after Chazon
listed the Vision
Foundations as principals. Again, based on the
information available to NFA, two principals of the
NFA Member were funded 100 percent by a single
entity, Chazoneering. If that entity was ultimately
controlled by an individual other than Fejokwu, then
that person likely needed to be a listed principal of
Chazon. NFA needs more than a representation
from Fejokwu that he is sole owner of Chazoneering.
Moreover, the sudden listing of the Vision
Foundations, which appeared to have been an
attempt by Fejokwu to find a reason not to provide
the Chazoneering statements, certainly gave NFA
legitimate concerns
as to the funding of
Chazoneering, which could have a direct impact on
who was required to be a listed principal of Chazon.

App.53a
NFA clearly has a legitimate regulatory reason, in
fact a responsibility, to ensure that the principals of
its Member firm are properly listed, and more
importantly,
not
subject
to
a
statutory
disqualification.
The Panel also notes that Fejokwu readily handed
over certain Chazoneering bank statements, but
refused to provide the statements during the time
period the Vision Foundations were funded. The
Panel believes that this response by Fejokwu was
further reason for NFA to question the funding of
Chazoneering, and ultimately the funding of Chazon,
as well as who were the pool participants.
At the hearing, Fejokwu argued that NFA did not
have a right to request the Chazoneering bank
statements because Chazoneering is not an NFA
Member.
NFA has the authority to require its Members to
provide documents from non-member entities over
which a Member has control if there is legitimate
regulatory purpose for requesting the documentation.
As discussed above, the Panel has concluded that
NFA did have a legitimate regulatory need for asking
for the Chazoneering and Vision Foundations bank
statements. NFA made numerous requests for these
bank statements and provided Fejokwu and Chazon
with adequate reasoning as to why NFA needed
these bank statements. Fejokwu, individually and
as a principal of Chazon, had control over
Chazoneering's bank statements.
There is no
question, therefore, that Chazon and Fejokwu
willfully violated NFA Compliance Rule 2-5 by
refusing to provide NFA with the 2011 Chazoneering
bank statements.

App.54a
A number of factors must be considered when
determining the appropriate sanctions for these
violations. One of the more important factors is the
nature of the violations. The evidence at the hearing
clearly establishes that Fejokwu, on behalf of himself
and Chazon, repeatedly refused to provide NFA with
the requested bank statements despite being
informed of his obligation under NFA Compliance
Rule 2-5 to provide this information. Since NFA
Compliance Rule 2-5 is the foundation by which NFA
is able to obtain the information it needs from its
Members to carry out its regulatory responsibilities,
any violation of this rule is a very serious violation
and cannot be tolerated. Based on the above findings
and discussion, the Panel hereby imposes the
following sanctions:
1. Chazon is permanently barred from NFA
membership and from acting as a principal of
an NFA Member.
2. Fejokwu is permanently barred from NFA
membership, associate membership and from
acting as a principal of an NFA Member.
IV
APPEAL
Chazon and Fejokwu may appeal the Panel's
Decision to the Appeals Committee of NFA by filing
a written Notice of Appeal with NFA within fifteen
days of the date of this Decision. Pursuant to NFA
Compliance Rule 3-13(a), the Notice must describe
those aspects of the disciplinary action to which
exception is taken and must include any request to

App.55a
present written or oral arguments. The Decision
shall be final after the expiration of the time for
appeal or review unless it is appealed or reviewed.
V
INELIGIBILITY
Pursuant to the provisions of CFTC Regulation
1.63, this Decision and the sanctions imposed by it
render Fejokwu permanently ineligible to serve on a
governing board, disciplinary committee, oversight
panel, or arbitration panel of any self-regulatory
organization as that term is defined in CFTC
Regulation 1.63.
NATIONAL FUTURES ASSOCIATION
HEARING PANEL
Dated:

2/27/15

Stephen T. Bobo
Chairperson

App.56a
UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT
No. 17-2408
CHAZON QTA QUANTITATIVE
TRADING ARTISTS, L.L.C., and
LAWRENCE I. FEJOKWU,
Petitioners
v.
COMMODITY FUTURES
TRADING COMMISSION
On Appeal from the Commodity Futures
Trading Commission
(Case No. CRAA 16-01)

SUR PETITION FOR PANEL
REHEARING

Present: CHAGARES and JORDAN,
Circuit Judges19

19 The Honorable Thomas I. Vanaskie, a member of the merits
panel that considered this matter, retired from the Court on
January 1, 2019. The request for panel rehearing has been
submitted to the remaining members of the merits panel.

App.57a
The petition for rehearing filed by petitioners in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court,
it is hereby ORDERED that the petition for
rehearing by the panel is denied.
BY THE COURT,
s/Michael A. Chagares
Circuit Judge
Dated: February 20, 2019
Lmr/cc: Tadhg Dooley
Melissa Chiang
Robert A. Schwartz

App.58a
UNITED STATES COURT OF
APPEALS
FOR THE THIRD CIRCUIT

No. 17-2408

CHAZON QTA QUANTITATIVE
TRADING ARTISTS, L.L.C., and
LAWRENCE I. FEJOKWU,
Petitioners
v.
COMMODITY FUTURES
TRADING COMMISSION

On Petition for Review from the Commodity
Futures Trading Commission
(CFTC Docket No. CRAA 16-01)
Submitted under Third Circuit
L.A.R. 34.1(a)
October 29, 2018
Before: CHAGARES, JORDAN, and
VANASKIE, Circuit Judges.
JUDGMENT

App.59a
This cause came to be considered on the record from
the Commodity Futures Trading Commission and was
submitted under Third Circuit L.A.R. 34.1(a) on
October 29, 2018.
After consideration of all the contentions raised, it
is ORDERED and ADJUDGED that the petition for
review is DENIED. Costs shall be taxed against the
petitioners. All in accordance with the Opinion of the
Court.

ATTEST:

s/ Patricia S. Dodszuweit
Clerk

Dated: December 13, 2018
Certified as a true copy and issued in lieu of a
formal mandate on February 28, 2019
Teste: Patricia S. Dodszuweit
Clerk, U.S. Court of Appeals for the Third
Circuit

App.60a
IN THE UNITED STATES COURT OF
APPEALS
FOR THE THIRD CIRCUIT
No. 17-2408
CHAZON QTA QUANTITATIVE TRADING
ARTISTS, L.L.C., and LAWRENCE I. FEJOKWU,
Petitioners,
v.
COMMODITY FUTURES TRADING
COMMISSION,
Respondent.
REPLY MEMORANDUM IN SUPPORT OF
PETITIONERS’ MOTION FOR LEAVE TO FILE
SUPPLEMENTAL APPENDIX
Inasmuch as Petitioners have not relied, and have
no intention of relying, upon the 2011 bank statement
appended to their Reply Brief, most of the arguments
in the CFTC’s Opposition to Petitioners’ Motion for
Leave to File a Supplemental Appendix are
completely beside the point. As explained in their
Motion, Petitioners seek leave to file a supplemental
appendix including the 2011 bank statement solely to
put to rest the CFTC’s false assertion that Petitioners
refuse to turn over the document “even now.”
Remarkably, the CFTC persists in this falsehood and
has doubled down in certain respects, necessitating
this reply.
Petitioners included the 2011 bank statement as an
attachment to their Reply Brief only because the

App.61a
CFTC had, in its Response Brief, asserted that
Petitioners refuse to provide the statement “even
now.” That assertion was both false and prejudicial,
as (in context) it suggested that Plaintiffs refused to
turn over the bank statement because they had
something to hide, when in fact Petitioners had made
multiple offers to provide the statement following the
NFA Panel Hearing.20

•

For some reason, the CFTC refuses to acknowledge
that its unsubstantiated assertion that Petitioners
refuse to turn over the bank statement “even now”
was, at a minimum, mistaken. Instead, it now claims
that “[t]he statement in the CFTC’s brief that
Petitioners were unwilling to provide the bank
statements ‘even now’ was in response to their
continued argument that they do not have to provide
them, as well as Mr. Fejokwu’s position that he
already provided the bank statements in the form of
an email.” CFTC Opp. at 3 n.l. To be clear, here is the
statement in question, in its entirety:
There is no question that Fejokwu failed to
provide the Chazoneering bank statements for
2011, the period that it funded the Vision
Foundations. Even now, four years later,
20 It is true, but beside the point, that Petitioners’ offers came
“too late.” CFTC Opp. at 4 n.l. Petitioners did not mention the
belated offers to provide the bank statement as a means of
excusing their early refusal to do so, but in order to refute the
CFTC’s false assertion that they continue to refuse to produce
the statement, as though they had something to hide.
Petitioners maintain that they did not willfully violate Rule 2-5
because the NFA had no legitimate regulatory reason for
demanding the statement in the first place and because they
demonstrated a willingness to cooperate with the NFA. See Pet.
Br. at 27-41; Pet Reply Br. at 5-9, 15.

App.62a
Petitioners still refuse to provide these bank
statements. NFA’s decision to find a violation of
Rule 2-5, and the CFTC’s decision to affirm,
were therefore supported by substantial
evidence and otherwise free from arbitrariness
or capriciousness.
CFTC Br. at 25 (emphasis added). That the CFTC
will not acknowledge and correct this misstatement in
the face of direct contradictory evidence is
remarkable.21
The CFTC’s Opposition contains a few additional
curiosities suggesting that its hostility to Mr.
Fejokwu—or at least its desire to preserve a “win” at
all costs—has clouded its judgment. For example, it
criticizes Petitioners for “characteriz[ing] an email as
an ‘emailed statement from Barclay’s Bank.’” CFTC
Opp. at 4 n.l (emphasis in original). But it offers no
superior nomenclature for describing what is, in fact
and indisputably, an “email” from “Barclay’s Wealth,”
containing a “statement” of transactions in
Chazoneering’s account—one which, it should be
21 The contradictory evidence consists not only of the appended
bank statement, itself, but also Mr. Fejokwu’s uncontested
representation, in Petitioners’ Motion to Reconsider, that he had
instructed his counsel “to inform the NFA that [he] was happy
to . . . provide the NFA the bank statements in whatever form
they required in order to speedily resolve/settle the case.”
AR1039. Though the CFTC attempts to downplay yet another
offer to provide the bank statement in July 2016, it does not
contest that Mr. Fejokwu made this initial offer shortly after the
NFA hearing. And yet, it refuses to correct its misstatement and
continues to suggest, without any record support, that
Petitioners have something to hide. See CFTC Opp. at 4 n.l (“If
Petitioners truly had nothing to hide, they could have cleared
this up a long time ago . . . .”).

App.63a
added, was sent to Mr. Fejokwu in response to his
request for “statements for the period January 2011 to
date.” See AR858—60 (emphasis added).
This “email” was itself attached to another email
that Mr. Fejokwu sent to the NFA Examiners on
March 26, 2014, in response to their document
request. See AR258-59. Because the NFA introduced
that March 26 email as an exhibit without the
attached Barclay’s email, Petitioners sought leave to
include the attachment in their initial administrative
appeal. See AR855-56. The Appeals Panel permitted
Petitioners to include the attachment, see AR940, but
concluded that it was “not the functional equivalent of
a bank statement,” AR941. It was for that reason that
Mr. Fejokwu later offered, on multiple occasions “to
provide the NFA the bank statements in whatever
form they required.” AR1039.
As recounted in his Motion to Reconsider, Mr.
Fejokwu instructed his counsel in December 2015 and
on several occasions in 2016 to offer the bank
statement as part of a proposed settlement. Id. The
CFTC has never contested this. And, as the CFTC now
acknowledges, Mr. Fejokwu reiterated the offer in a
July 2016 letter. See CFTC Opp. at 4 n.l.22 In that
letter (quoted in the CFTC’s Opposition), Mr. Fejokwu
asked the CFTC to direct the NFA to “allow[] me to
provide [the statement] in a format acceptable to
22 The CFTC accuses Petitioners of “misleading^” the Court by
suggesting that “Mr. Fejokwu sent a certified letter to (among
others) Deputy General Counsel Robert Schwartz.” Id. While it
is true that the letter was addressed to Eileen Flaherty, then
the Director of the Division of Swap Dealer and Intermediary
Oversight, it was indisputably “sent” to Mr. Schwartz, as
confirmed by the FedEx delivery confirmation Mr. Fejokwu
possesses.

App.64a
them.” Yet rather than acknowledge that this
statement belies its claim that “Petitioners still refuse
to provide these bank statements,” the CFTC insists
that it “hardly reads as an offer to provide the actual
statement.” CFTC Opp. at 4 n.l. It is hard to see how
it can be read in any other way.
Petitioners do not wish to prolong this side dispute
unnecessarily. As they stated in their Motion, they do
not seek to rely upon the contents of the 2011 bank
statement, but only to rebut the CFTC’s
unsubstantiated accusation that they continue to
withhold it in order to conceal something, either from
the regulators or the Court. Unfortunately, the CFTC
refuses to admit error and persists in casting
aspersions on Petitioners that Petitioners are illequipped to defend themselves against, given the
limited scope of the Administrative Record. Whether
or not the Court grants the instant motion, Petitioners
ask that the Court read these and other assertions
with an appropriately skeptical eye and not to affirm
on the basis of allegations or insinuations that
Petitioners are procedurally unable to contest. See
generally Pet. Reply Br. at 10-13.
Respectfully submitted,
/s/ Tadhg Dooley_______
Tadhg Dooley
David R. Roth
Wiggin and Dana LLP
265 Church Street P.O. Box 1832
New Haven, CT 06508-1832
(203) 498-4400 tdooley@wiggin.com
Dated: July 24, 2018
Attorneys for CHAZON QTA QUANTITATIVE
TRADING ARTISTS, L.L.C., and
LAWRENCE I. FEJOKWU

App.65a
UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT
No. 17-2408
CHAZON QTA
QUANTITATIVE TRADING
ARTISTS, L.L.C. and
LAWRENCE I. FEJOKWU,
Petitioners
v.
COMMODITY FUTURES
TRADING COMMISSION
(Agency No. CRAA 16-01)
Present: CHAGARES, JORDAN and VANASKIE,
Circuit Judges
1.

Motion by Petitioners for Leave to File
Supplemental Appendix, construed by
the Clerk as a motion to expand the
record;

2.

Response by Respondent in Opposition
to Motion for Leave to File
Supplemental Appendix;

3.

Reply by Petitioners in Support of
Motion for Leave to File Supplemental
Appendix.

App.66a
Respectfully,
Clerk/MS
ORDER
The foregoing motion is hereby granted.
By the Court,
s/Michael A. Chagares
Circuit Judge
Dated: December 12, 2018
MS/cc: All counsel/parties of record

App.67a
STATUTES, REGULATIONS, AND RULES
INVOLVED IN THE CASE
The Commodities Exchange Act provides, in pertinent
part, Section 6(c)(5)
(5) SUBPOENA.—For the purpose of
securing effective enforcement of the
provisions of this Act, for the purpose of any
investigation or proceeding under this Act,
and for the purpose of any action taken
under section 12(f), any member of the
Commission or any Administrative Law
Judge or other officer designated by the
Commission (except as provided in
paragraph (7)) may administer oaths and
affirmations, subpoena witnesses, compel
their attendance, take evidence, and require
the production of any books, papers,
correspondence, memoranda, or other
records that the Commission deems
relevant or material to the inquiry.
The Commodities Exchange Act provides, in pertinent
part, Section 4(g). This is mirrored in 7 U.S.C. § 6g.
(a) In general
Every person registered hereunder as futures
commission merchant, introducing broker, floor
broker, or floor trader shall make such reports as are
required by the Commission regarding the
transactions and positions of such person, and the
transactions and positions of the customer thereof, in
commodities for future delivery on any board of trade

App.68a
in the United States or elsewhere, and in any
significant price discovery contract traded or executed
on an electronic trading facility or any agreement,
contract, or transaction that is treated by a
derivatives clearing organization, whether registered
or not registered, as fungible with a significant price
discovery contract; shall keep books and records
pertaining to such transactions and positions in such
form and manner and for such period as may be
required by the Commission; and shall keep such
books and records open to inspection by any
representative of the Commission or the United
States Department of Justice.
The Commodities Exchange Act provides,
pertinent part, Section 2 (a) (11).

in

(11) Seal
The Commission shall have an official seal, which
shall be judicially noticed.
The Commodities Exchange Act provides,
pertinent part, Section 8(a)(5).

in

(5) to make and promulgate such rules and
regulations as, in the judgment of the Commission,
are reasonably necessary to effectuate any of the
provisions or to accomplish any of the purposes of this
Act;
The Commodity Futures Trading Commission Act
provides, in pertinent part, 7 U.S.C. § 21(b)(h):
(3) (A) Application to the Commission for
review, or the institution of review by the

App.69a
Commission on its own motion, shall not
operate as a stay of such action unless the
Commission otherwise orders, summarily
or after notice and opportunity for hearing
on the question of a stay (which hearing
may consist solely of the submission of
affidavits
or
presentation
of
oral
arguments).
The Commodity Futures Trading Commission Act
provides, in pertinent part, 7 U.S.C. § 21 (i)(4):
(i) Notice; hearing; findings; cancellation, reduction,
or remission of penalties; review by court of appeals
(4) Any person aggrieved by a final order of the
Commission entered under this subsection may file a
petition for review with a United States court of
appeals in the same manner as provided in section 9
of this title.
The Commodity Futures Trading Commission Act
further provides, in pertinent part, 7 U.S.C. § 9(5):
(5) Subpoena
For the purpose of securing effective enforcement of
the provisions of this chapter, for the purpose of any
investigation or proceeding under this chapter, and
for the purpose of any action taken under section 16(f)
of this title, any member of the Commission or any
Administrative Law Judge or other officer designated
by the Commission (except as provided in paragraph
(7)) may administer oaths and affirmations, subpoena
witnesses, compel their attendance, take evidence,
and require the production of any books, papers,
correspondence, memoranda, or other records that the
Commission deems relevant or material to the
inquiry.

App.70a
The Commodity Futures Trading Commission Act
further provides, in pertinent part, 7 U.S.C. § 9(8):
(8) Refusal to obey
In case of contumacy by, or refusal to obey a
subpoena issued to, any person, the Commission may
invoke the aid of any court of the United States within
the jurisdiction in which the investigation or
proceeding is conducted, or where such person resides
or transacts business, in requiring the attendance and
testimony of witnesses and the production of books,
papers, correspondence, memoranda, and other
records. Such court may issue an order requiring such
person to appear before the Commission or member or
Administrative Law Judge or other officer designated
by the Commission, there to produce records, if so
ordered, or to give testimony touching the matter
under investigation or in question.
Judiciary and Judicial Procedure, 28 U.S.C. § 1254
(1):
Cases in the courts of appeals may be reviewed by
the Supreme Court by the following methods:
(1) By writ of certiorari granted upon the petition of
any party to any civil or criminal case, before or after
rendition of judgment or decree;
The Code of Federal Regulations provides, 17 C.F.R.
§ 11.4 (b):
An order of the Commission authorizing one
or more members of the Commission or of
its staff to issue subpoenas in the course of
a particular investigation shall include:

App.71a
(1) A general description of the scope of the
investigation;
(2) The authority under which
investigation is being conducted; and

the

(3) A designation of the members of the
Commission or of its staff authorized by the
Commission to issue subpoenas.
The Code of Federal Regulations further provides,
17 C.F.R. § 4.13(a)(2):
(a) A person is not required to register under
the Act as a commodity pool operator if:
(2)
(i) None of the pools operated by it has
more than 15 participants at any time;
and
(ii) The total gross capital contributions
it receives for units of participation in
all of the pools it operates or that it
intends to operate do not in the
aggregate exceed $400,000.
(iii) For the purpose of determining
eligibility
for
exemption
under
paragraph (a)(2) of this section, the
person may exclude the following
participants and their contributions:
(A) The pool's operator, commodity
trading advisor, and the principals
thereof;
(B) A child, sibling or parent of any
of these participants;

App.72a
(C) The spouse of any participant
specified in paragraph (a)(2)(iii)(A)
or (B) of this section; and
(D) Any relative of a participant
specified in paragraph (a)(2)(iii)(A),
(B) or (C) of this section, its spouse
or a relative of its spouse, who has
the same principal residence as
such participant;
The Code of Federal Regulations further provides,
17 C.F.R. § 10.41:
Prehearing conferences; procedural matters.
In any proceeding the Administrative Law Judge
may direct that one or more conferences be held for
the purpose of:
(a) Clarifying issues;
(b) Examining the possibility of obtaining
stipulations, admissions of fact and of authenticity or
contents of documents;
The Code of Federal Regulations further provides,
17 C.F.R. § 10.68:
Subpoenas.
(a)Application for and issuance of subpoenas (2)Application for subpoena duces tecum. An
application for a subpoena requiring a person to
produce specified documentary or tangible evidence
(subpoena duces tecum) at any designated time or
place may be made by any party to the Administrative
Law Judge. All requests for the issuance of a subpoena
duces tecum shall be submitted in duplicate and in
writing and shall be served upon all other parties to
the proceeding, unless the request is made on the

App.73a
record at the hearing or the requesting party can
demonstrate why, in the interest of fairness or justice,
the requirement of a written submission or service on
one or more of the other parties is not appropriate.
Except in those situations described in paragraph (b)
of this section, where additional requirements are set
forth, each application for the issuance of a subpoena
duces tecum shall contain a statement or showing of
general relevance and reasonable scope of the
evidence being sought and be accompanied by an
original and two copies of the subpoena being
requested, which shall describe the documentary or
tangible evidence to be subpoenaed with as much
particularity as is feasible.
(3)Standards for issuance of subpoena duces tecum.
The Administrative Law Judge considering any
application for a subpoena duces tecum shall issue the
subpoena requested if he is satisfied the application
complies with this section and the request is not
unreasonable, oppressive, excessive in scope or
unduly burdensome. No attempt shall be made to
determine the admissibility of evidence in passing
upon an application for a subpoena duces tecum and
no detailed or burdensome showing shall be required
as a condition to the issuance of any subpoena.
(4)Denial of application. In the event the
Administrative Law Judge determines that a
requested subpoena or any of its terms are
unreasonable, oppressive, excessive in scope, or
unduly burdensome, he may refuse to issue the
subpoena, or may issue it only upon such conditions
as he determines fairness requires.
The Code of Federal Regulations further provides,
17 C.F.R. § 11.4:

App.74a
Subpoenas.
(a)Issuance of subpoenas. The Commission
or any member of the Commission or of its
staff who, by order of the Commission, has
been authorized to issue subpoenas in the
course of a particular investigation may
issue a subpoena directing the person
named therein to appear before a
designated person at a specified time and
place to testify or to produce documentary
evidence, or both, relating to any matter
under investigation.
(b)Authorization to issue subpoenas. An
order of the Commission authorizing one or
more members of the Commission or of its
staff to issue subpoenas in the course of a
particular investigation shall include:
(1) A general description of the scope of the
investigation;
(2) The authority under which
investigation is being conducted; and

the

(3) A designation of the members of the
Commission or of its staff authorized by the
Commission to issue subpoenas.
(e) Pursuant to the authority granted under
Sections 2 (a) (11) and 8a(5) of the Act, the
Commission hereby delegates to the
Director of the Division of Enforcement,
with the concurrence of the General Counsel
or General Counsel's delegee, and until such
time as the Commission orders otherwise,

App.75a
the authority to invoke, in case of
contumacy by, or refusal to obey a subpoena
issued to, any person, the aid of any court of
the United States within the jurisdiction in
which the investigation or proceeding is
conducted, or where such person resides or
transacts business, in requiring the
attendance and testimony of witnesses and
the
production
of
books,
papers,
correspondence, memoranda and other
records pursuant to subpoenas issued in
accordance with section 6(c) of the Act for
the
purpose
of
securing
effective
enforcement of the provisions of this Act, for
the purpose of any investigation or
proceeding under this Act, and for the
purpose of any action taken under section
12(f) of the Act.
The National
provides:

Futures

Association

Rule

Each Member and Associate shall cooperate
promptly and fully with NFA in any NFA
investigation, inquiry, audit, examination
or proceeding regarding compliance with
NFA requirements or any NFA disciplinary
or arbitration proceeding. Each Member
and Associate shall comply with any order
issued by the Executive Committee, the
Membership Committee, the Business
Conduct
Committee,
the
Appeals
Committee or any NFA hearing or
arbitration panel.

2-5,

App.76a
The National Futures Association Rule 3-14,
provides, [in pertinent part]:
(a) Types of Penalties.
The Business Conduct Committee, BCC
Panel or Hearing Panel, or the Appeals
Committee on appeal or review, may at the
conclusion of the disciplinary proceeding
impose one or more of the following
penalties:
(i) Expulsion, or suspension for a specified
period, from NFA membership; a two-thirds
vote of the members of the Hearing Panel or
the Appeals Committee present and voting
shall be required for expulsion. A suspended
Member shall be liable for dues and
assessments but shall have no membership
rights during the suspension period nor
shall a suspended Member hold itself out as
an NFA Member during the suspension
period;
(ii) Bar or suspension for a specified period
from association with an NFA Member;
(iii) Censure or reprimand;
(iv) A monetary fine, not to exceed $250,000
per violation;
(v) Order to cease and desist; and
(vi) Any other fitting penalty or remedial
action not inconsistent with this rule.

App.77a
EXCERPTS OF TRANSCRIPT OF NFA
HEARING

kkk kkk

[Testimony of Fejokwu]
“Again, recall, I became an NFA member voluntarily
when I didn't when I wasn't required to and, frankly,
against advice, trying to have this seal of good
approval. And I was actually reluctant that I filed this
request to withdraw.”
’k'k'k

k'k'k

kkk

[Testimony of Fejokwu]
“And my registration became effective 2013, even
though I did qualify for the 4.13(a) (2) exemption at
that point in time.”
kkk

kkk

kkk

[Testimony of Fejokwu]
“So I said, you know what, let me withdraw my
registration because I don't have the resources to go
get a ... audit. That was the only motivation for me
requesting to withdraw from membership on
December 24, 2013.”
kkk

kkk

kkk

App.78a
[Testimony of Fejokwu]
“And it states here in the last paragraph: Mr.
Fejokwu is also the founder and chief visionary officer
of the Vision New Africa Foundation; this is founded
by it's the sister organization of Chazoneering and it's
a private, self-funded foundation committed to
realizing pan-African socio-economic Renaissance, the
New Africa. This, again, is also from 2003. It's a
printout, but I can send you the original electronic file.
And anyone can confirm to you that that file is dated
back as far back as 2003. So, again, more evidence
showing that this structure that seems so suspicious
has always been my consistent structure from when I
had zero to now where I am.”
•kick

•kick

•kick

[Testimony of Fejokwu]
“...I went to the Federal Register to see what does
this rule actually say, what other requirements for
4.13(a) (2)

[Testimony of Fejokwu]
“...as part of my registration requirement, every
quarter I meant to submit a PRS form that informs
the NFA of current assets, monthly returns, source
providers. And I, every quarter, did that.”

•kick

•kick

App.79a
[Testimony of Fejokwu]
“So when they now asked for this audit, as he said,
why were we doing that? Because they saw losses. The
NFA knew of those losses all through 2013. There
wasn't any epiphany suddenly March 2014 because
every quarter, I submit a report to the NFA. And I
always, on time, submitted that report with all the
losses. I never for once avoided stating my losses. I
never for once misrepresented my losses. I always,
every quarter, would report I lost money; I lost money.
And every time I did that, I got an email from the NFA
asking me questions about my submission and
specifically why were there losses? And I always
explained to them why there were losses.
So Mr.
Hirst's assertion that he certainly learned I had losses
was a new concern, I must state respectively is
incorrect. The NFA was fully aware throughout 2013
that this fund was consistently losing money. There
was no mystery there. There was no secret there.”
kkk

•kick

kkk

[Cross examination of NFA witness Arthur
Kenigstain - the NFA lead examiner - by NFA
attorney Ron Hirst]
Q. Are you familiar with this particular document?
A. Yes. This is the email I sent to Mr. Fejokwu on
March 25th, again, thanking him for his time and
having the call with us. Also, if you look at the last
page, this includes the initial document request list
that we did send to Mr. Fejokwu on March 25th
requesting certain documents ....

App.80a
Q. Okay. So this was sent out following the phone
conference; is that correct?
A. Yes.
Q. Okay. And did Mr. Fejokwu respond to this email?
A. Yes, he did. That night, he responded probably
within two hours. When we came in the next morning,
we had, for the most part, if not all, the documents
that we requested on the initial checklist.
Q. Okay. So very promptly he responded to this?
A. Yes, he did.
Q. And to the best that you could determine, his
response satisfied all of the specific requests in the
document request; is that right?
A. Yes.
•kick

kid?

[Testimony of Fejokwu]
“Again, the anxiety of why are these guys on my back?
I'm a small, one-man shop managing a tiny fund,........
why all this pressure and scrutiny on me? He said,
we'll try and get you
the list of documents, tonight.
...by the next morning, I sent them all the documents.
Luckily, I had everything on my computer. It took me
some time. I had other personal deadlines for other
important matters, which I ended up missing,
because, at this point, I felt this is a regulator; I don't
know what's going on; I need to respond to them; I
need to cooperate with them.... They gave me three
days. Given that I had a deadline, something very

App.81a
important to me that was also due March 28th, I could
have just said I can't meet that deadline; please give
me a week extension, which they probably would have
given me. But my sense was these guys are suspicious
about something; remember, you're Nigerian; don't
give them any excuse to start wondering.
But within two hours that night, I sent them the - all
the items on the request. And I felt everything would
be okay at that point.”

kkk

kkk

•kick

[Testimony of Fejokwu speaking to Arthur
Kenigstain - the NFA lead examiner - during
cross-examination.]
“Because I spoke to Amanda Olear [of the CFTC] and
I informed you I spoke to her. And she informed me
that she had spoken to you and she will speak to you
again. But I spoke to Amanda Olear [of the CFTC]
about the foundation of principals, and she informed
me she had spoken to you and she will speak to you
again.”
kkk

kkk

kkk

[Testimony of Fejokwu.]

“So my first question is, how can I be charged with a
Complaint when, prior to this complaint before
anything's happened, we had a meeting in my office,
in my home office, on April 7th. We had a

App.82a
disagreement. I sent two follow-up emails that were
not responded to. And then I get an email on May 6th
telling me to respond to this. I agree to respond to it
and ask for an extension. You give it to me. The
extension was to a date in June. How then on May
15th can you charge me with a formal Business
Committee complaint with not cooperating when f
haven't even responded to your last request to me and
that deadline had not yet expired? I mean, how does
that happen?................
So after that - and I will call the NFA --1 spoke with
Ms. Cain. And I said, I just got a letter. I got a letter a
week ago from the NFA asking me for a response. I
asked for an extension because I'm doing my exams.
They gave it to me. So how is a complaint issued in
that time frame? Her response was that of surprise,
that - and my suspicion is that there was some
miscommunication between Compliance and Legal.
But the point the Hearing Panel should focus on is
that how can I be charged with not cooperating, given
this history, given my two unreplied emails, given a
letter sent to me that I was told to respond to and
given an unexpired deadline? How in that period did
the NFA go to the Business Committee and claim that
I'm not cooperating and then file a complaint?”
•kick

kkk

k'k'k

[Testimony of NFA Attorney, Ms. Cain]
“...we called it the peeling back of the layers of an
onion, and, unfortunately, that is what it's like.”
kkk

kkk

kkk

“Fejokwu controls [Chazoneering] 100 percent.”

App.83a
•k'k'k

"k'k'k

k'k'k

[Opening Statement of NFA attorney, Ron
Hirst]
“Members of the Panel, my name is Ron Hirst. I am
an attorney for NFA, and I'll give hopefully a very
brief opening statement. This is not a complicated
case. This is not a sales practice case, a fraud
case.”
(emphasis added)
kkk

kkk

"k'k'k

[Testimony of Fejokwu]

“So the issue here today is that I’m being charged with
not cooperating. The record shows that from the
moment I got a phone call on March 25th, I was
cooperating, giving them documents, printing them,
sending them stuff, thinking of what to do to prove
and doing all of that.
So I said, not to be seen as ignoring the matter -- I
think on April 14th or so, I sent them another email.
And I said, I’ve not heard from you again; I’m telling
you my position. And I stated in that email, I’m still
willing to cooperate with you and rim also per that
email, I'm also willing to discuss with your superiors;
I'm also willing to discuss with your legal department.
So I didn't just say, I'm not giving this to you because
I believe I have a case and ignored them. Even when
I didn't hear from them, I sent them two follow-up

App.84a
emails saying, what's going on? I would like to meet
with you again; I'd like to talk to your superiors,
thinking that we'd have some kind of dialogue.
Because at that point, I felt that, to be very honest,
that we had -- there was just some personal suspicion
between myself and them. And I felt if one of the
superiors got involved or some person from the legal
department got involved, a different set of eyes would
help to break the ice.
So I actually proposed that in two follow-up emails
saying, let's continue this dialogue. Those two emails
went unreplied. Yet, I'm the one being accused of not
cooperating.”
•kick

•kick

•kick

[Cross examination of NFA witness Arthur
Kenigstain - the NFA lead examiner - by NFA
attorney Ron Hirst]
•kick

•kick

•kick

Q. Okay. So go ahead; I'm sorry.
A. As a result, we requested one of the bank
statements for the foundation to determine their
source of funding and also the pool's bank accounts to
confirm that the subscriptions were indeed received
from the foundations.
Q. And did he respond to that request?
A. Yes, he did. He ended up providing us the Barclays
account statements for both foundations, which
showed, one, their initial endowment and also showed
the funding they received for their investment into the
feeder fund. What we ended up learning after
reviewing those statements that both were either
directly or indirectly funded by the entity
Chazoneering LLC.

.

App.85a
ANSWER TO COMPLAINT:
NFA Case No. 14-BCC-006
1. I hereby issue a full and complete general denial of
ALL allegations issued in the NFA Complaint
issued under NFA Case No. 14-BCC-006.
2. NFA knows fully well, where I can be reached and
that the place where business records of CHAZON
QTA are kept is my Guttenberg, NJ home-office.
Indeed, all documents, all correspondence I receive
from the NFA, have always come to this
Guttenberg, NJ address. This address is listed in
the NFA ORS system and it is from this same
system that NFA got the address to use to send me
correspondence,
Despite NFA having this
knowledge, NFA does not call me on my telephone
number which they have, or visit the Guttenberg,
NJ location which they know of and at which they
send me all correspondence, or email me at my
email address which they have. Instead, the NFA
choses then to “locations” in NY including a
location where my lease had ended since 2009,
merely to create the false, negative impression as
asserted in paragraph 9 of the Compliant, that I
have no business location or that I am unreachable
or some other negative connotations. This is
clearly false. As proof of this, within fifteen or so
minutes of receiving an email from them on March
25, 2014 , stating that they “visited [my] office
locations [and] were unable to reach [me ]”; I
immediately called them on the number they
provided. If they had visited my only office
location - the Guttenberg home-office or emailed
or called me as opposed to visiting mystery “office
locations” there would be no basis to falsely create
the negative impression created in paragraph 9.

App.86a
3. With respect to paragraph 11, the documents NFA
claims they “obtained”
are documents I
voluntarily provided them in good faith,
The
trading losses, which they cite in paragraph 11 of
the Complaint, are completely non-germane to this
matter, as no fund assets are missing or
misappropriated,
The numerical figures of
invested amounts and trading and losses are again
completely non-germane to this matter and only
mentioned so as to poison the mind of the reader
and create a negative impression,
This
information constitutes confidential information
that should be redacted from any public document.
In any event, these losses were already previously
known to the NFA as the trading losses were
reported in each of the fund’s quarterly PQR
reports that the fund was required to submit to
NFA. Furthermore, on at least two occasions, after
receiving the PQR reports I filed, the NFA
called/emailed me to discuss those losses. I then
provided at that time responses to the NFA which they accepted as satisfactory explanations.
So the implication in paragraph 11 that the NFA
only suddenly (in March 2014) became aware of
losses
because they suddenly “obtained”
documents is spurious, a lie and grossly
misleading.
4. Paragraph 12, again is yet misleading and
inaccurate. I filed an exemption request under
CFTC Reg. 4.13(a)(2) since Feb 2014. This request
and the previous withdrawal request from NFA
Membership submitted in December 2013 were not
acted upon promptly by the NFA. My repeated
request for action on these requests (withdrawal

App.87a
and exemption) led to rude responses from the
NFA and what appeared to me to be punitive
actions.
There exists documentary evidence of
these rude responses, including an email where a
rude remark was made about me by an NFA staff
member. I discovered this when this email was
inadvertently sent to me and I was able to see the
comment made about me). These punitive actions
included constant referrals to more parties in the
NFA and more information requests each time I
asked for the status of the withdrawal and
exemption requests. When NFA now contacted me
on March 25, 2014 and indicated they were
performing an exam/audit they indicated that to
qualify for the 4.13(a)(2) exemption, I needed to
provide proof that the investors in the Fund were
truly proprietary. They specifically requested for
.■“Personal bank statements or bank statements of
other entities you operated, evidencing the funding
of VNA & VNN for their contributions to the feeder
fund. ” I then provided exactly that information on
March 27, 2014 by providing the statements of the
foundations showing that the two foundations, just
as I had represented verbally, received their total
endowment solely from CHAZONEERNG my
business vehicle. I thought at that point the
matter was over as I had provided documentary
evidence to confirm my verbal representation, the
exam would come to an end, they would accept my
withdrawal from NFA membership and make
effective my 4.13(a)(2) exemption. To my great and
continued shock, the NFA immediately shifted the
goal post and now asserted that what they had
previously requested i.e. “bank statements of other
entities you operated, evidencing the funding of
VNA & VNN for their contributions to the feeder

App.88a
fund.” (and which I had duly provided) was no
longer sufficient. When I pointed this out to them,
they now, incredulously replied on March 27, 2014:
“However, how are we to know that you are 100% the
owner of Chazoneering LLC? That being said, even
ifyou are the 100% owner of Chazoneering LLC, this
does not prove that you are the sole contributor,
owner or beneficiary of these foundations. All this
confirms is that Chazoneering funded the
foundations investments into the feeder fund. “
So on March 26th they request for:
““bank statements of other entities you operated,
evidencing the funding of VNA & VNN for their
contributions to the feeder fund. ”
Then when on March 27th after I provide precisely
what they requested, they now assert that:
“this does not prove that you are the sole
contributor, owner or beneficiary of these
foundations. ”
Contradictorily, though, they acknowledge in
Paragraph 12 of the Complaint that they know that
I own and operate CHAZONEERING.
5. They then informed me that they wanted to see
bank statements of CHAZONEERING for all
periods so as to confirm that all inflows into
CHAZONEERING came solely from me; to quote
them - to confirm that CHAZONEERING was
“solely funded by me”. Obviously, this is an
impossible request, no bank statement of a
business, will show that all inflows came from the
owner of the company.
Bank statements of
Microsoft, will not show inflows “solely” from Bill
Gates. Businesses have counterparties and as
such have inflows from such counterparties. It was
now clear to me that they were determined to

App.89a
continue to shift the goal posts and make
impossible requests all with the aim of preventing
me of availing myself of the 4.13(a)(2) exemption.
6. Upon further study of the regulation, it became
clear to me that under CFTC Reg. 4.13(a)(2), I
could fully qualify for the exemption, if all
contributions to the pool came from “principals” of
the CPO. Thankfully at the time of establishing
the CPO, four years prior to this NFA inquiry, the
CPO was established with the two foundations as
principals of the CPO. I then informed the NFA
that the foundations were both principals of the
CPO and I was now claiming the exemption
4.13(a)(2) on these grounds. I provided them a
revised Exemption document duly signed and
evidence that the Foundations were indeed
principals of the CPO. I had previously provided
evidence by bank statements showing that all
contributions to the pool came from the
Foundations.
7. Again, I thought the documents provided in point
six above and the clear and undeniable fact that I
qualified for the exemption on the statutory
grounds of all investors being principals as allowed
by 4.13(a)(2) would bring the mater to an end. To
my great shock, this was not the case. Sadly, when
a party is driven by malice, prejudice, a desire to
persecute, a desire to witch-hunt and punish - all
driven by prejudice and ill-willed prejudgment,
nothing will satisfy them until they achieve their
perverse end. This is the manner in which the
NFA has handled this matter — it is a clear witch­
hunt driven by malice, prejudice and a spirit of
persecution.

App.90a
8. Instead, of accepting the facts I had presented in
point 6 as documented by documentary evidence,
they decided to once again shift the goal post and
come up with another ruse to continue their
persecution and harassment. The new ruse was
that they suspected that CHAZONEERING LLC
was involved in the CPO /futures business. They
based this erroneous belief on an old fund database
listing they found on the Internet. The fact that the
website listing clearly showed in bold the word:
“ARCHIVE” clearly indicating to any objective
clear-minded observer that this website listing
referred to CHAZONEERING’s old (“archived”)
activity and not current activity was as usual
conveniently ignored by them, as this fact did not
fit the fable they sought to create. I pointed this
out to them, but they insisted and used this
spurious website listing as grounds to request for
bank statements for CHAZONEERING for the
2013 period. I responded that I felt a request of
bank statements of CHAZONEEIRNG were
unnecessary and not within their rights to
request as it was not a NFA member firm, was not
active in futures business and even if it was active
in futures business how would that necessarily be
proven from bank statements. I found the request
unduly intrusive and further evidence of a witch­
hunt and as such refused to provide them. Indeed
, the NFA said to me during that April 7, 2014
meeting and I quote “We have no jurisdiction over
your private business (CHAZONEERING)”. So
why are they requesting for bank statements of
CHAZONEERING? Their answer to me was that
they suspect the entity is involved in futures
business. Where in the law does unfounded

App.91a
suspicion give grounds to make intrusive requests
of entities you freely admit you have no
jurisdiction over? I find this whole situation
incredulous! The onus is not on the accused but on
the accuser:
“semper necessitas probandi
incumbit ei qui agit” and “ei incumbit probatio aui
dicit. non qui negat”. I told the NFA staff that if
they did not believe that CHAZONEERING was
not in the futures business as I had represented to
them, why not contact all their FCMs
independently. Actually, one would think that
from their perspective this should have been their
preferred approach since it was clear they did not
believe anything I told them. They responded:
“they wanted to come to me first and not bother the
FCMS”. Reluctantly, but still cooperating in good
faith and hoping to bring the matter to an end, I
informed them that on an exceptional one-time
basis I would provide them those statements. I did
send them those bank statements on April 7, 2014
and felt once again that the matter would come to
an end. Yet again, I was wrong! NFA now
informed me that they wanted bank statements
from 2011 for Chazoneering and bank statements
for the two foundations from 2011. Their rationale
now was that they wanted to make sure there were
no contributions to any of these entities that would
create a “Principal” relationship of the entity that
would require such a party to register with the
NFA as a “principal”.
9. I found this incredibly shocking and surprising. At
this point, I firmly told them I would not provide
any more bank statements, as they continued to
lie, mislead, deceive me and constantly provide
varying ruses as they shifted goalposts all as part

App.92a
of their witch-hunt. Furthermore, they had no
rights to make intrusive requests of me that had
no connection to the matter at hand simply
because they felt they had “power” to do so. At the
same time, I informed them that I remained
willing to discuss the matter with them or their
superiors further to reach a solution. I never
received a reply to that email.
10. Paragraph 13 of the NFA compliant , refers to a
“rambling message”. There was nothing rambling
about the message. What was and is “rambling” is
the NFA’s actions; jumping from ruse to ruse to
make intrusive requests as they fish for non­
existent evidence to confirm their malicious,
prejudiced , premeditated negative judgment of a
COMPLETLEY INNOCENT man.
11. Paragraph 14 of the NFA Compliant again
misleads. NFA did not suddenly “learn” of my
return to New York. I informed them when on the
first or second day we spoke on March 25th or 26th,
2014, voluntarily of my return and even told them
they were welcome to visit me in my home office at
any time of their choosing — announced or
unannounced.
12.Paragraph 15 is again fully misleading. I fully
explained to NFA on April 7th, 2014 hat the LLC
Agreement they received form the FCM - ABN
AMRO was a draft LLC Agreement I sent to ABN
AMRO in error.
To prove this I showed them
during the meeting my compute hard drive folder
showing the history of the LLC agreements. I
showed them the files with all the date and time
stamps of initial documents in MS Word and

App.93a
conversion to Acrobat pdf versions. All this I did,
immediately during the April7th meeting within
two minutes of their raising the issue with me, so
that there would be no question of my tampering
with the authenticity of the computer files. They
saw clearly that I erroneously in 2012 (when ABN
Amro requested for the LLC agreement as part of
account opening process) converted the draft MS
Word version to pdf and sent to them without
reviewing that draft to ensure it was the correct
final version. I even showed them that I realized
this error a few weeks after I sent ABN AMRO the
LLC Agreement in 2012 and upon learning of my
error, created the proper correct version in PDF of
the LLC agreement. The date stamp clearly shows
that the correct version of the LLC agreement PDF
file was prepared in 2012 ( a week or two after
sending ABN AMRO the erroneous version) and a
full two years prior to NFA contacting me in March
25, 2014. As such there is and can be no question,
that there was any post facto action taken on my
part as all these files predated the NFA inquiry. I
even went further to explain to them, that the
draft LLC agreement showing 100% ownership by
Chazon New Africa Group was changed to the final
version with LIF and VNA as 50% owners on
advice of my counsel. My counsel advised that the
LLC Agreement should show the underlying
owners of the firm and not the holding company
ownership for full transparency. The date and
time stamps on the computer files of the LLC
Agreement were clear for them to see, and since I
did not know they were going to ask me of this,
prior to our meeting, there is no question that I
was and am being truthful. They accepted this
explanation and confirmed they believed and

App.94a
understood my explanation of what happened.
Therefore, I ask why does NFA introduce this issue
in paragraph 15 of their complaint if not so as to
try to make a case where none exists and disparage
me. They only tangentially in point 16 disclosed
partial details of my explanation to them. Here
again, one sees a clear attempt by NFA to poison
opinions. I will also state here, I am willing to have
a computer forensic analyst examine those
computer files to confirm that indeed their date
and time stamps are accurate and untampered. In
any event this is all a moot point, because even if
the erroneous LLC Agreement was the actual LLC
agreement it still does not change the facts of the
matter, that the principals of the firm are myself
(LIF) and the two foundations. The correct LLC
Agreement only reflects this underlying ownership
(in the spirit of transparency) as opposed to
showing the holding company as the LLC owner.
13. Paragraphs 17 - 19 of the complaint have been
addressed by me in my points 8 and 9 above. It is
important note that in paragraphs 17-19 of the
NFA complaint the NFA fails to explain their basis
for the request of the bank statements and their
constantly changing rationale for bank statements
to be provided and the various ruses they employed
to extract the statements form me. I refer the
reader again to my points 8 and 9 above.
14. Paragraph 20 of the NFA complaint is simply
shocking and highly indicative of the gross
unprofessionalism of the NFA staff. Apparently
the NFA Attorney has no facts to make the case
that he/she is now forced to make gratuitous,
childish, unprofessional, meaningless comments

App.95a
to pad a complaint that is devoid of any
substantive legitimate, meritorious complaint.
My signing of my emails (as I have for almost two
decades as Chief Chazoneer) is completely nongermane to the matter at hand. It is fully within
my prerogative to give myself whatever title I wish
and sign my missives as I please. Some companies
have their founders with titles like “Chief Yahoo”.
Therefore, what is so strange in my giving myself
a title that it merits inclusion in an NFA
complaint. Incredible! It would be amusing that
the NFA attorney included this as a full paragraph
in a complaint and indicative of the lack of
substance to the complaint, but in matters of this
nature where the NFA disparages, persecutes
innocent parties it is not amusing. It is simply
gravely sad that regulators instead of working for
the public interest, use their power recklessly.
15. In summary, NFA continues (see paragraph 21 of
the NFA complaint) to falsely and misleadingly
maintain that they have been unable to verify the
principals of the CPO. That is patently false. They
further assert that they need bank statements to
make that determination. That too is not only
false but also absurd, as I show below in points 16
-24.
16. To determine a principal of an entity the NFA &
CFTC have a precise definition seen in the NFA
Manual at
https://www.nfa.futures.org/nfamanual/NFAMan
ual. aspx?RuleID=RULE%20101 &Section=8
Also in the CFTC definition of “principal” in 17
CFR
3.1(a)(2)(h)
Please
see
http://www.law.cornell.edU/cfr/text/17/3.l#a or h

App.96a
ttp://www.ecfr.gov/cgi-bin/textidx?SID=04da608f06cfb39ff9e5db874dl5cbc9&no
de=17:1.0.1.1.3.1.7.1&rgn=div8
17. Under no reading or interpretation of the statutory
definition of principal can it be seen that a bank
statement will prove who or not is a “principal”.
18. CHAZONEERING is NOT an owner or beneficiary
of CQTA, therefore, there cannot be any principal
relationship arising from indirect ownership of
CHAZON QTA through CHAZONEERING.
19. Even if, CHAZONEERING was an owner or
beneficiary of CQTA (and it is NOT), validation of
ownership of CHAZONEERING will not come by
looking at a bank statement but through corporate
ownership documents - e.g. LLC agreement, stock
certificates, share register.
There is, therefore, absolutely no need to see
CHAZONEERING bank statements.
20.1 note also that I have already provided NFA
documentation
to
validate
ownership
of
CHAZONEERING and NFA acknowledges that
they know that I own CHAZONEERING (point 12
of the NFA complaint).
21. Similarly, CHAZONEERING is NOT an owner or
beneficiary of VNA or VNN, therefore, there
cannot be any principal relationship of CQTA
arising from indirect ownership of CHAZON QTA,
through
ownership
of VNA/VNN
by
CHAZONEERING.
There is,
therefore,
absolutely no need to see CHAZONEERING
bank statements.

App.97a
22. There are two owners of CHAZON QTA — VNA and
myself. As such, there is only one owner that is a
non-individual that needs to be looked through
(VNA) to identify ultimate beneficiaries. I have
since
late
March
2014
provided
NFA
documentation to allow NFA to look through VNA
to determine the beneficiary of VNA. The
documentation I provided to NFA in that regard,
proves that the sole beneficiary of VNA is VNN.
I have further provided documentation to allow
NFA to look through VNN to determine the
beneficiary of VNN. That documentation proves
that the sole beneficiary of VNN is the “Public at
large” - which is in accordance with tis function as
a charitable foundation. There is, therefore,
absolutely no need to see VNA or VNN bank
statements.
23. As such, the ultimate beneficiaries of CQTA are
known to NFA using the documentation I provided
NFA since March 31st. This has proven that there
is no party that owns 10% or more of CQTA
directly or indirectly. Therefore, NFA does know
and has known since March 31, 2014 ALL
principals of CQTA: LIF, VNA, and VNN.
24. The request for bank statements is clearly
demonstrated above to be completely unnecessary
as (i) bank statements cannot validate ownership
of an entity, (ii) all applicable documents to prove
the ultimate beneficiaries of CQTA have been
provided to NFA since March 31st.
25. NFA is now on this basis charging me with not
“cooperating” with them — and as such deem this a
violation of Rule 2-5. Sadly, the NFA uses Rule 2-

App.98a
5 as a “catch-all” tool of persecution. It is certain,
that Rule 2-5 was not created to be a prosecutorial
weapon of persecution that can be used to create a
crime when none exists. Rule 2-5 does not provide
carte blanche to intrude and demand irrelevant
documents or make intrusive and unnecessary
requests. This is simply a matter of both law and
principle.
26. In this matter, it is abundantly clear that I have at
all times cooperated with NFA. Indeed, the NFA
is on record as telling me (and even thanking me)
both verbally and in writing for cooperating with
their inquiry/exam. This is well documented. In
this regard, see in addition to the points above,
points 27 - 31 below.
27. On April 8, 2014 I sent an email to the NFA
Compliance Department, indicating willingness to
discuss with members of the NFA legal team to
resolve the matter — and received no reply to this
request
this is evidence of NFA NOT
cooperating with me, as opposed to me not
cooperating with NFA.
28. On April 14, 2014 I sent another email to NFA,
wondering why the April 8th email had gone
unreplied (and remains unreplied to date),
explaining the matter again in tremendous detail,
and again requesting for a meeting with NFA
compliance staff superiors to resolve the matter,
stating in that email, to wit:
“I reiterate that I remain cooperative and will continue
to cooperate with you. In my continued spirit of
cooperation, so as to bring this matter to a speedy end,

App.99a
I am more than willing to speak again to your team or
any of your superiors. ”
Yet again, I received no reply to this email or request
for a meeting
this is yet again evidence of
NFA NOT cooperating with me, as opposed to me not
“cooperating” with NFA.
29. On May 6, 2014, I received an email letter from
NFA titled: “Closure of Examination” informing
me the exam was closed and also asking me to
respond by May 20, 2014 indicating how I intended
to correct or have corrected issues they discovered
during the examination. Yet, NFA went ahead to
issue a BCC complaint on May 15, 2014 BEFORE
the expiration of the May 20 2014 deadline. This is
yet again clear evidence of NFA NOT cooperating
with me, as opposed to me not cooperating with
NFA, indeed this is evidence of malicious conduct
on NFA’s part.
30. On May 13, 2014 I informed the NFA Compliance
department, that I would reply to the May 6, 2014
letter as requested but needed more time due to
pressing personal matters (details of which I
provided to the NFA); and as such I requested from
NFA an extension of the May 20 deadline. I
received on that same May 13, 2014 an extension
to June 9, 2014. Yet NFA issues a BCC complaint
on May 15, 2014 BEFORE the expiration of the
first May 20, 2014 deadline or the new June 9,
2014 deadline. This is clear evidence again of
NFA NOT cooperating with me, as opposed to me
not cooperating with NFA, indeed this is evidence
of malicious conduct on NFA’s part.

App.lOOa
31. Given all of the above points, the NFA’s Business
Conduct Committee (“BCC” complaint should not
at all have been issued, was issued maliciously
and unjustly; and I strongly suspect the BCC was
not
informed
or
aware
of the
facts
above. Therefore, the NFA’s BCC complaint
should, be immediately withdrawn and should also
be immediately removed from the NFA website
and my BASIC record.
32. It is also clear that the NFA Legal department was
not fully informed of all details by the NFA
Compliance department and in turn, the NFA’s
BCC was also not fully informed of all pertinent
facts. The NFA BCC should thus not have issued
a Complaint given that they were not fully
informed of all facts of the matter. In discussing
with Cynthia Ionnacci of the NFA Legal
Department on May 15, 2014, she made it clear
that she and the BCC were not aware that the
Compliance department had issued a “Closure of
Exam” letter to me and had closed the exam via
letter of May 6, 2014. Indeed, Ms. Ionnacci
expressed great surprise and disappointment
when I brought to her attention. Why then should
a BCC complaint be issued when the BCC (and
apparently the Legal Department) was not
presented with all the pertinent facts? That is
clearly unjust.
33. Furthermore, the BCC was also not made aware,
or so it seems, that contrary to the false allegations
that I was “not cooperating”, I was repeatedly
reaching out to the NFA providing information and
documents. The BCC was not made aware that it
was the NFA not me who refused to reply or

App.lOla
engage with me or cooperate with me. Indeed, my
email of April 14, 201 reiterated my full
cooperation and willingness to speak by meeting or
conference call. This email was never replied by
the NFA.
34.1 also strongly suspect, that several pertinent facts
of the matter were not presented to the BCC. This
is clear from the complaint. It is a clear malicious,
rush to judgment, based on a biased pre-judgment
by the NFA Compliance and Legal Departments.
35. An objective observer, would conclude, that it does
seem the BCC Complaint was frankly obtained
under false pretenses with the BCC not being
made aware of the full facts of the matter. If the
prosecution (in this case, the NFA Legal
Department) does not provide all pertinent
information to the grand jury (the BCC) then
that indictment (Complaint) should be
voided. This is the basis of my request for the
Complaint to be withdrawn - especially as it
contains unnecessary private information (and
does so inexplicably, with no redaction
whatsoever) and disparages me for no just cause.
36. My position is simple as summarized in the points
below:
37.1 have ABSOLUTELY committed NO offense
whatsoever. To the contrary, NFA has to my
continued bewilderment, been acting in bad faith,
based on a biased pre-judgment and is now
disparaging me.

App.l02a
38.1 fully cooperated with the NFA and indeed NFA is
on record verbally and in writing confirming that I
did cooperate.
39. The bank records NFA requests of non-NFA
member firms**, cannot “validate the owners” of
the NFA member firm. I have already fully by
provision of pertinent corporate documents,
validated the ownership of the NFA member firmCHAZON QTA, the CPO. All owners and
ultimate beneficial owners/beneficiaries of
the firm have been made known to NFA since
March 2014.
** I note also that the bank statements
of the NFA member firm - CHAZON QTA have
been provided to the NFA (since March) and
in addition, I provided NFA authorization to
independently confirm those bank statements
directly with the bank.
40. After providing documents to confirm the
ownership of the firm CHAZON QTA, NFA then
shifted the goalpost and told me, they wanted to
ensure that CHAZONEERING was not involved in
the “futures business” and hence wished to see
bank statements to confirm that. I responded that
banks statements for CHAZONEERING seemed to
be
an
overly
intrusive
request
as
CHAZONEERING is not a NFA member
firm. They (NFA Compliance staff), then said that
they “had no business with my private business ”
i.e. no jurisdiction over my private business —
CHAZONEERING - a non-NFA member firm.
However, they suspected that CHAZONEERING
was involved in futures business and wished to

App.l03a
verify if this was true. When I wondered, why and
how bank statements could confirm activity in
“futures business”, they said they would look in the
bank statements for activity with FCMs. I
responded to them that since virtually all of my
representations to the NFA in this matter have not
been believed, that I recommended they use their
powers to directly contact their FCMs. I told them
that would be the best way to confirm/disprove
their suspicions - and would enable them do so
independently from a source they trusted - their
FCMs. I further stated that I was 100% certain
that all their FCMs would advise NFA that
CHAZONEERING is not in the futures
business. The NFA staff responded: “Well, we like
to come to the firm first before going to their
FCMs”. Foolishly, trusting the NFA Compliance
staff, and wising to demonstrate my continued
good faith actions, even though I felt on principle,
it was an intrusive request with no justification, I
on the same day, reluctantly, provided bank
statements for CHAZONEERNG for the period
they requested. I was so certain, that with that
submission, the matter would finally come to an
end.
41. To my great shock (but in hindsight, this was the
typical fashion of the NFA Compliance department
and it should not have surprised me***), after they
received these statements, and not seeing any
“futures business activity”, they yet again, for the
third or fourth time shifted the goalposts. They
now indicated they needed more bank statements
not for confirmation of “futures business activity”
but now to determine if there was any party that
should be registered as a “principal” of the

App.l04a
firm. To this I responded, that bank statements
cannot verify principal status. At no point, prior to
this time, was the issue of validating owners” even
raised with me - and why would it - when I had
already provided evidence of the firm’s ownership
to the NFA Compliance department.
•kick

I note also that prior to providing
statements for CHAZONEERING in April (in
connection with the “futures business activity” ruse) ,
I did indeed provide bank statements for the
two foundations (which frankly, on principle, I
should not have). - Here too, once NFA Compliance
Staff received it - they shifted the goalpost and asked
for something else
the CHAZONEERING
statements - using the ruse of “futures business
activity” as their justification.
42.1 have listed ALL parties that are principals of the
firm/CPO
— myself and the two charitable
foundations, with the NFA. There are NO other
individuals or entities involved in the firm. This is
fully confirmed by documentary evidence long
since provided to NFA. This verbal and written
representation of mine has been repeatedly made
to NFA AND I have also provided documentary
evidence to confirm ALL ultimate beneficiary
owners/beneficiaries or principals of the
firm. The definition of “principal” in the CFTC
regulations [17 CFR 3.1(a)] is clear and under NO
interpretation of that definition can it be alleged
that all owners of the firm are not known to
NFA. As I stated in point 39 above, all owners of
the firm have been fully disclosed and validated by
documentation I have since provided to NFA. As
such, there are no mystery principals who have not

App.l05a
been listed with NFA. As I continue to wonder,
why would I not list a principal?
43.To conclude, I reiterate, the documents I have
provided are more than sufficient to confirm all
ultimate beneficial owners/beneficiaries of the firm
- CHAZON QTA. Furthermore, nowhere in
the definition of principal in the CFTC
regulations, is a bank statement evidence of
ownership. In addition, nowhere in the law,
nowhere in legal or corporate precedent can
a bank statement be used as evidence of
ownership or “principal” status.
44. Finally, it is very important to note that in the cash
testing and other elements of the NFA exam, no
funds of the pools were found missing, no funds of
the pools found to have been misappropriated, no
performance data/returns of the fund found to be
misstated. Despite the funds going through a
severe drawdown, I continued to consistently, and
honestly disclose all losses accurately).
45. Simply put, the activities the CPO have not put
any outside party whatsoever at any risk, have
caused no harm to any outside party and have
simply done nothing wrong whatsoever.
While it is sad that the Fund suffered a drawdown,
business setbacks are in themselves NEVER
criminal.
46. The NFA Manager Arthur Kenigstain told me on
April 7th after our meeting that the NFA is a
private entity and not a government entity. He
said he wished they were a government entity so
they could have more “power’ and greater

App.l06a
jurisdiction. I found that comment chilling and
alarming. Is the function of the NFA to have
endless power and jurisdiction to persecute and
terrorize and engage in witch-hunts with no use of
good judgment and discretion or is their function
to protect the public? Given my experience, it is
VERY sad that instead of serving the public, the
NFA wastes precious resources witch-hunting
small one-man shops like myself that are working
hard and honestly to advance their enterprise.
Perversely, in witch-hunting me they have
actually not served the public’s interest as
resources could have been used for other legitimate
cases and worse they have distracted me and as
such caused my firm adverse harm and injury in
addition
to
reputational
damage
and
disparagement. I will seek full redress for this
harm done to me.
47. On principle, I will not allow any power hungry
regulator to feel they have the right to intrude into
all elements of my life because they feel they have
“power”. I also recall and note here, that in typical
NFA misleading fashion, the NFA attempted to
obtain from CHASE bank my personal bank
statements without permission from me. They did
this despite my explicitly telling them I was not
giving them such permission and their agreeing
that they would not intrude and request for my
personal bank statements. Yet, they still went
behind my back to attempt to access such personal
bank statements. I continue to wonder what in the
world are they looking for?! This dishonest act of
the NFA staff was confirmed to me directly by the
service provider (Confirmation.com) that provides
electronic confirmation of bank statements. It is a

App.l07a
complete travesty, the abuse of power the NFA has
been engaged in. I will not allow my good name to
be disparaged without seeking redress for such.
48. FINAL PRAYER:
a. I pray the NFA BCC Committee or other
relevant NFA party will dismiss this
spurious case/complaint.
b. The NFA should take immediate steps to
reverse the public disparagement caused
by me by posting of these documents on
a public website (with no attempt at
redaction whatsoever). This complaint
and this answer should be immediately
removed from the NFA website.
c. My voluntarily withdrawal from NFA
membership submitted in December
2013 should be immediately accepted
and my voluntary withdrawal made
complete without prejudice to future re­
registration.
d. My 4.13(a)(2) exemption filed since
February and March 2014 should be
immediately
accepted
and
made
effective.
49. I am fully innocent and I am fully prepared to
pursue all means to defend myself and fully clear
my good name. I will pursue this to the highest
levels of justice, if need be.

App.l08a
Response of NFA to Motion for
Reconsideration
•kirk kick

kkk

“Chazon and Fejokwu also argue that they were
denied due process because NFA filed its Complaint
prior to the time they were given to answer the exam
report and explain what corrective action they had
taken. It is difficult to discern how these
circumstances supposedly denied Chazon and
Fejokwu due process.”

App.l09a
Excerpt of Petitioner’s Motion for
Reconsideration bv CFTC
•k’k'k

k’k'k

kkk

“The timeline above which the NFA has not disputed,
shows that my right to respond to the NFA Notice was
not upheld. If I had not replied to the Notice, by the
June 9, 2014 deadline set by the NFA, then and only
then, could the NFA have alleged that I had "failed to
cooperate". The NFA process requires that NFA turn
cases over to the NFA's Business Conduct Committee
("BCC") for possible complaints to be issued after an
examination is concluded. An examination cannot be
considered concluded if the deadline provided in the
Conclusion of Examination Notice for me to respond
has not yet expired. NF A's filing of the Complaint
alleging a "failure to cooperate" was both premature
and a violation of my due process rights.”
***

kkk

kkk

The NFA can then independently authenticate the
"unauthenticated email"; or instruct me as to how I
should authenticate the "unauthenticated email";
or instruct me to provide them the bank statement
in a form they request. I am more than happy to
fully cooperate in this regard not only to fulfill my
regulatory responsibilities but also so that all
parties can know that there was no impropriety in
the bank statements
this is also critically
important to me for the sake of my name - so that
the unfortunate misimpression that has been
created can be debunked.

App.llOa

"kick "kick

kick

I must also highlight that, on my own volition,
on multiple occasions during this CFTC
appeal process - in December 2015 and on
several occasions in 2016 - I requested my
counsel at the time, J.B. Koch to inform the
NFA, that I was happy to have the NFA
authenticate the email and/or allow me
provide the NFA the bank statements in
whatever form they required in order to
speedily resolve/settle the case. To my great
surprise, I was told the NFA refused this goodfaith proposal.
(emphasis in original)

